U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                  Inspections of Firearms
                  Dealers by the
                  Bureau of Alcohol, Tobacco,
                  Firearms and Explosives

                       Report Number I-2004-005




                            July 2004
                                EXECUTIVE DIGEST


       The Office of the Inspector General (OIG) assessed the effectiveness
of the Bureau of Alcohol, Tobacco, Firearms and Explosives’ (ATF)
program for inspecting Federal Firearms Licensees (FFLs) to ensure that
they are complying with federal firearms laws and regulations. We
reviewed the frequency and quality of the ATF’s different types of FFL
inspections; how the ATF manages its Inspector resources; how the ATF
selects FFLs for inspection; and the regulatory enforcement actions taken
by the ATF against FFLs who violate federal firearms laws.

       The Gun Control Act of 1968 (Act) established the ATF’s FFL
inspection program “for ensuring compliance with the record keeping
requirements” of the Act.1 ATF Inspectors conduct “application
inspections” on applicants for FFLs and “compliance inspections” on
existing license-holders. Application inspections are conducted to ensure
that applicants are familiar with the Gun Control Act and other federal
firearms laws.2 Compliance inspections are conducted to ensure that
FFLs are obeying these laws. Specifically, FFLs must account for all
firearms that they have bought and sold, and report all multiple
handgun sales and firearms thefts to the ATF. If the ATF finds
violations, it is empowered to take adverse actions including issuing
warning letters, directing FFLs to attend warning conferences, revoking
the FFLs’ licenses, and, potentially, referring the matter to ATF Special
Agents for criminal enforcement. As of March 2004, the ATF had limited
authority to suspend an FFL’s license, and no authority to fine FFLs.

RESULTS IN BRIEF

       We found that the ATF’s inspection program is not fully effective
for ensuring that FFLs comply with federal firearms laws because
inspections are infrequent and of inconsistent quality, and follow-up
inspections and adverse actions have been sporadic. Specifically, the
ATF does not conduct in-person inspections on all applicants before
licensing them to sell guns, and ATF compliance inspections of active
dealers, including large-scale retailers, are infrequent and vary in quality.
Even when numerous or serious violations were found, the ATF did not
uniformly take adverse actions, refer FFLs for investigation, or conduct
timely follow-up inspections.

       1   The Gun Control Act of 1968, Public Law 90-618. Title 18 U.S.C. Chapter 44.

       2 The National Firearms Act, Title 26 U.S.C. Chapter 53; The Arms Export
Control Act of 1976, Title 22 U.S.C. § 2778.

U.S. Department of Justice                                                        i
Office of the Inspector General
Evaluation and Inspections Division
        We also found wide variations in the ATF inspection program’s
productivity and implementation among the ATF Field Divisions that led
us to conclude that inspection procedures should be streamlined and
standardized. Although the ATF faces significant shortfalls in resources,
it must ensure that available Inspector resources are used effectively and
efficiently to ensure that FFLs comply with federal firearms laws. The
ATF has begun to implement changes to improve the consistency with
which it conducts follow-up inspections and takes adverse actions.
However, our review concluded that the ATF still needs to implement
consistent inspection procedures to identify and address problem FFLs.

The ATF Does Not Conduct In-Person Application Inspections on All
New FFLs to Verify Applicant Information and Ensure They
Understand Firearms Laws

       Application inspections are critical for ensuring compliance with
federal firearms laws. These inspections enable the ATF to verify that
applicants are eligible for federal firearms licenses and also provide the
new dealers an opportunity to discuss issues related to firearms laws
with ATF Inspectors. Further, if an FFL violates federal firearms laws
after having received an application inspection, it is easier for the ATF to
meet the legal standard of demonstrating that the violation was “willful.”3

      In fiscal year (FY) 2002, the ATF issued 7,977 licenses to new
firearms businesses and 7,382 licenses to firearms collectors, and
conducted 8,123 application inspections.4 Upon examining the ATF’s
firearms license database, we found that most (95 percent) of the
inspections were of businesses, not collectors, which indicated that the
ATF inspected the preponderance of new firearms retailers in FY 2002.
However, our interviews and survey of ATF Headquarters and Field
Division personnel found that many of those application inspections
consisted only of a telephone call rather than an in-person visit. ATF
Headquarters and Field Division staff told us that telephonic application
inspections were not as comprehensive as in-person inspections, but the
ATF staff said that they did not have enough resources to conduct all

         3 In the context of the Gun Control Act, willfulness is the intentional disregard

of, or indifference to, legal obligations. Repeat violations (especially where there was
notification of prior violations) or large numbers of violations can demonstrate
willfulness. Sometimes one egregious violation, such as selling a gun to a
non-prohibited person when the FFL knows that the gun is actually for a prohibited
person (“straw purchase”), can demonstrate willfulness.

       4  A collector’s license enables individuals to make interstate sales and
purchases of firearms classified by the ATF as curios and relics to facilitate a personal
firearms collection. ATF officials told us that they do not place a high priority on
inspecting new firearms collectors.

U.S. Department of Justice                                                          ii
Office of the Inspector General
Evaluation and Inspections Division
inspections in person. Subsequent to the initiation of this review, in an
October 8, 2003, memorandum to ATF Field Divisions, the ATF Assistant
Director for Firearms, Explosives, and Arson issued revised guidance for
conducting application inspections. The memorandum stated that the
ATF’s goal is to inspect all new FFL applicants on-site to ensure that they
understand federal firearms laws before issuing them a federal firearms
license, beginning with applicants in 14 selected cities. Although the
new guidance is a step in the right direction, the ATF still does not
comprehensively inspect all new applicants in person.

The ATF Does Not Regularly Conduct Compliance Inspections on
Active FFLs, Including Large-Scale Retailers

      We found that most FFLs are inspected infrequently or not at all.
According to the former ATF Director, the agency’s goal is to inspect each
FFL at least once every three years to ensure that they are complying
with federal firearms laws. However, due in part to resource shortfalls,
the ATF is currently unable to achieve that goal. ATF workload data
show that the ATF conducted 4,581 FFL compliance inspections in
FY 2002, or about 4.5 percent of the approximately 104,000 FFLs
nationwide. At that rate, it would take the ATF more than 22 years to
inspect all FFLs.

      Our review of the inspection history for 100 randomly selected
FFLs also showed that the ATF did not conduct regular compliance
inspections. Of the 100 FFLs, 23 had never been inspected; 22 had
received only an application inspection; 29 had received at least one
compliance inspection; and 26 FFLs had received only a license renewal
inspection. Even for those FFLs that had been inspected, the records
showed that many of the inspections occurred years ago. For example,
one FFL cited in 1985 for selling a rifle to a minor and for numerous
record-keeping violations had never been re-inspected.

The ATF Does Not Identify and Inspect All FFLs that Exhibit
Established Indicators of Potential Violations or Gun Trafficking

       “Crime gun” trace data enables the ATF to identify FFLs that may
be violating federal firearms laws or FFLs at which firearms trafficking
may be occurring.5 Although the ATF focuses its inspections on those
FFLs that exhibit most severely the established indicators of trafficking


       5  The ATF defines a “crime gun” as any firearm that is “illegally possessed, used
in a crime, or suspected by law enforcement officials” of having been used during the
commission of a crime. The ATF National Tracing Center traces crime guns recovered
by law enforcement agencies to determine where they were originally sold by an FFL.

U.S. Department of Justice                                                       iii
Office of the Inspector General
Evaluation and Inspections Division
(e.g., sales of many handguns to one person), it does not identify all FFLs
U   U




that exhibit those indicators. Instead, the ATF manipulates the criteria it
uses to target FFLs for inspections so that it only identifies as many such
FFLs as it has the resources to inspect. Therefore, the ATF has not
applied its established indicators of potential trafficking to objectively
identify the full universe of potential traffickers.

      In December 2003, the ATF began a special project to identify
common characteristics of FFLs that pose a greater risk to public safety,
so that the general level of compliance within the industry can be
estimated and that compliance inspections can be better directed at
those FFLs where it is most likely that violations may have occurred.
Nonetheless, until the ATF objectively identifies the full universe of FFLs
that exhibit established trafficking characteristics, it cannot identify the
resources it needs to effectively address FFLs that are likely to be
committing violations, or accurately report to the Attorney General,
Congress, and the public on the scope of the potential trafficking
problem at FFLs.

Implementation of FFL Inspections by Field Divisions Is
Inconsistent

       The conduct of FFL inspections varied greatly among the ATF Field
Divisions. The average time that each of the 23 ATF Field Divisions
spent conducting each application inspection in FY 2002 ranged from
6.2 hours per inspection to as much as 25.5 hours per inspection. The
average time spent to conduct each compliance inspection ranged from
24.5 hours to as much as 90 hours per inspection. ATF Headquarters
officials stated that the variance in average inspection times among the
23 Field Divisions occurred because of the discretion that Inspectors
have in conducting compliance inspections and because some Field
Divisions had more inexperienced Inspectors on staff, which reduced
productivity.

      We reviewed the ATF’s guidance for inspections and found that it
does allow Inspectors great latitude to modify significant portions of the
inspections. For example:

        •   To determine whether an FFL’s record-keeping system is
            accurate, ATF Inspectors may either conduct a full inventory
            during a compliance inspection or sample the FFL’s inventory.
            The ATF inventory worksheet used during inspections provides
            no guidance to ensure that a minimum valid sample is taken.



U.S. Department of Justice                                            iv
Office of the Inspector General
Evaluation and Inspections Division
       •   The ATF worksheet for examining sales records does not specify
           how many records to review. Our interviews with Inspectors in
           Field Divisions found varying approaches. For example, in the
           Miami Field Division, Inspectors said that they reviewed six
           months of records, while Inspectors at the Seattle Field Division
           said that they examined the records for one year. The
           Inspectors also examined the records differently. Of the 18
           Inspectors we interviewed, 14 said that they only examine the
           forms to see if they were properly filled out, while 4 indicated
           that they also look for indications that a purchaser may be part
           of a firearms trafficking ring or acting as a straw purchaser for
           someone else.

       We also examined the numbers of inexperienced Inspectors on
staff and compared the percentage of inexperienced staff to the average
inspection times for each Field Division, but we found no correlation.
Rather, our review of application inspection data found that average
inspection times were related to disparities in staffing levels and the
number of FFLs located in the Divisions. Field Division Inspector staff
ranged from a high of 35 Inspectors to a low of 9 Inspectors. Likewise,
the number of FFLs in each Field Division ranged from 1,172 to 8,194.
However, the ATF had not distributed its Inspector resources among the
Field Divisions to match the distribution of FFLs, resulting in significant
workload imbalances. As a result, the average time that each Field
Division spent on application inspections decreased as the number of
FFLs per available Inspector increased.

       We also examined several performance indicators to see if the
inspection variations had an impact on outcomes, such as violations
found and criminal referrals. We found little correlation between the
amount of time that Field Divisions spent inspecting and the number of
adverse actions (such as revoking an FFL’s license) that the Field
Divisions took or the number of times the Field Divisions identified and
referred suspected criminal activity for investigation. We also found
significant variances in productivity among the ATF Field Divisions’
inspections. For example, our analysis of the ATF’s FY 2002 workload
and performance data found:

       •   The number of inspections conducted per Inspector each year
           ranged from 12.7 (Miami Field Division) to 46.5 (Kansas City
           Field Division).

       •   The percentage of the inspections conducted by Field Divisions
           that identified violations varied from just 4.5 percent (Kansas
           City Field Division) to 41.5 percent (Dallas Field Division).

U.S. Department of Justice                                            v
Office of the Inspector General
Evaluation and Inspections Division
       •         On compliance inspections in which violations were discovered,
                 the average number of violation instances found ranged from
                 15.9 (Nashville Field Division) to 178.2 (Chicago Field Division).

       •         The average time that the Field Divisions took to find each
                 violation instance ranged from 47 minutes per violation
                 instance (Dallas Field Division) to over 7 hours per violation
                 instance (Los Angeles Field Division).

       Our review of FFL inspection files also found that even when FFL
compliance inspections identify significant violations of federal firearms
laws by the FFLs or by gun purchasers, these violations are not always
reported to ATF Special Agents for investigation. We identified several
cases in which indications of potential criminal violations, including gun
trafficking, were identified but not referred for investigation. The FFLs
were subsequently investigated after the illegal activity was discovered
through other means. For example, one FFL was inspected in October
2002, and during that compliance inspection the Inspector found 40
firearms not entered into the FFL’s inventory records, missing sales
records, and sales to out-of-state residents – all strong indicators of gun
trafficking. However, the Inspector did not report the findings through
ATF management channels to ATF Special Agents for investigation.
Subsequent to the inspection, information from a confidential informant
led to an investigation, and in December 2003, ATF Special Agents
arrested the dealer for firearms trafficking.

The ATF Acts Infrequently to Revoke Federal Firearms Licenses, and
the Process is Not Timely

       In FY 2002, 1,934 of the inspections that the ATF conducted
uncovered violations. Inspectors found an average of almost 70
violations on each of these 1,934 inspections. In FY 2003, the ATF found
violations on 1,812 inspections, with an average of over 80 violations
each. However, the ATF issued only 30 Notices of Revocation in FY 2002
and 54 Notices of Revocation in FY 2003. In addition to initiating few
revocation actions, the process for revoking the licenses of FFLs that
violated federal firearms laws, or clearing the FFL, is lengthy.6 The ATF
                                                                        TP   PT




provided us with case-tracking data for 50 closed denial and revocation
cases completed in FY 2001 and FY 2002. We determined that the



       6
       TP Notices of Revocation are not final. Of the 30 Notices in FY 2002, 25 FFLs
            PT




requested a hearing and 3 of those avoided revocation. (FY 2003 data was unavailable.)
The ATF also can effectively revoke an FFL’s license by denying his or her request for
license renewal, and in FY 2001, the ATF denied 28 requests for renewal.

U.S. Department of Justice                                                        vi
Office of the Inspector General
Evaluation and Inspections Division
processing of these 50 cases averaged 379 days from the date that the
Inspector recommended revocation to the date that the case was closed.

       According to ATF officials, the lengthy duration of revocation
proceedings was due to the number of ATF officials involved in the eight-
step process (e.g., Area Supervisors, Directors of Industry Operations
(DIOs), Division Counsels, and Hearing Officers) and delayed support
from ATF lawyers. The ATF’s case tracking data did not include internal
tracking dates, but Assistant Chief Counsels and Division Counsels we
interviewed acknowledged delays in denial and revocation proceedings.
They stated that the delays were due, in part, to their heavy caseloads
and a need for better documentation of violations from ATF Inspectors.
We also noted that, in some cases, delays occurred due to a lack of legal
staff within the Field Division. Some Field Divisions without staff
lawyers were required to obtain support directly from their regional
Assistant Chief Counsel’s Office.7

       In May 2003, subsequent to the initiation of our review, the ATF
issued guidelines to ensure more consistent and timely initiation and
processing of adverse actions. We found that, after the ATF issued the
guidelines, the number of FFL revocation hearings rose from 25 in
FY 2002 to 87 in FY 2003. The ATF also denied FFL requests to renew
their licenses or issued Notices of Revocation 59 times during the first
quarter of FY 2004. Most of these cases had yet to be finalized as of
March 2004.

       The May 2003 guidelines begin to address the problems that we
noted with the ATF’s past failure to consistently follow up and take
action when violations are found. Specifically, the policy directs that all
FFLs that were issued warning letters or that were directed to attend
warning conferences must be scheduled for a follow-up “recall”
inspection in the following year, and that adverse actions are to escalate
for repeat offenses. The policy also establishes a time frame for part of
the adverse action process by directing Field Divisions to act on
recommendations for adverse action within 90 days after receiving the
inspection report.




       7  The ATF has five Assistant Chief Counsel Offices, located in San Francisco,
Chicago, Dallas, Atlanta, and New York/Philadelphia. The northeast regional office is
currently operating in Philadelphia due to the September 11, 2001, destruction of the
ATF’s New York offices, which were located at the World Trade Center.

U.S. Department of Justice                                                     vii
Office of the Inspector General
Evaluation and Inspections Division
FFL Inspections Must Be Streamlined and Standardized

       With the May 2003 guidelines, the ATF began to improve the
consistency and timeliness of adverse actions (including warning letters,
warning conferences, and revocation), but the ATF needs to further
improve the consistency and quality of FFL inspections. The current
variability in the Field Divisions’ inspection implementation must be
addressed to ensure that FFLs subject to adverse actions are treated
consistently. Requiring specific adverse actions for specific numbers of
violations in the absence of standardized inspection procedures and
sampling criteria will result in dissimilar treatment of FFLs in different
Field Divisions. As discussed previously, the ATF’s guidance on
conducting inspections does not ensure consistent examinations of FFLs’
compliance with gun laws.

       Areas in which the inspection process could be improved include:
standardizing procedures to require reviews of firearms inventories and
sales records to establish a statistically valid sample needed to verify the
effectiveness of the FFL’s inventory management and record-keeping
systems; standardizing and automating inspections paperwork and
providing laptop computers to enable Inspectors to prepare reports on-
site; extending the inspection cycle for FFLs with no significant violations
so that limited resources can be directed toward noncompliant dealers;
and establishing guidance to ensure that Inspectors consistently identify
and report indications of firearms trafficking for investigation.

      Improving the efficiency of the inspection process through
standardization also could reduce the need for additional staff and the
time spent at FFLs. In an April 2003 report to Congress, the former ATF
Director stated that to fully implement the ATF’s mission to enforce
federal firearms laws, the ATF would need 1,235 Inspectors dedicated to
conducting FFL inspections.8 That projection appears to include an
assumed 27 percent increase in the average length of inspections over
the historical average of 49.4 hours that we identified.9 If the staffing
requirement was calculated using the ATF’s actual historical inspection
average of about 50 hours, the ATF would need a total of only 984
Inspectors to accomplish firearms inspections on a triennial basis.
Moreover, rather than increasing inspection times, our analysis shows

       8  On March 24, 2004, the current Acting ATF Director reiterated the report’s
figures in testimony before the House Committee on Appropriations, Subcommittee on
Commerce, Justice, and State, the Judiciary, and Related Agencies.

       9   This average includes both application and compliance inspections, as well as
all other time (e.g., leave, training, etc.) that must be considered when projecting
staffing needs.

U.S. Department of Justice                                                     viii
Office of the Inspector General
Evaluation and Inspections Division
that implementing a streamlined yet statistically valid inspection regimen
could reduce the average inspection time and the ATF could therefore
reduce the number of additional Inspectors needed to accomplish FFL
compliance inspections every three years. For example, by reducing the
average inspection time to 40 hours, the ATF would reduce the number
of Inspectors needed to conduct FFL compliance inspections on a
triennial basis from 1,235 to 788 Inspectors.

       Increasing the efficiency of the inspection process also is needed
because the demand on ATF Inspectors to perform duties related to
explosives is increasing. In November 2002, the Safe Explosives Act
imposed new requirements that increased the number of explosives
licensees and directed the ATF to conduct on-site inspections of
explosives licensees at least once every three years. The additional
explosives workload already has reduced the ATF’s ability to inspect
FFLs. Our review of inspections data for the first five months of FY 2004
found a precipitous decrease in the number of compliance inspections.
From October 2003 through February 2004, the ATF completed just
1,113 FFL compliance inspections. At that pace, the ATF would
complete fewer than 2,700 FFL compliance inspections during FY 2004 –
less than half the number that the agency reported that it completed in
FY 2003 and less than 2.6 percent of the FFL population.

The ATF Does Not Consistently Report Inspection Performance

       In response to our requests for inspections and workload data, the
ATF queried its N-Spect, Federal Licensing System (FLS), and Standard
Time and Attendance System (STATS) electronic databases.10 During our
examination of the performance and productivity of the ATF’s FFL
inspections program, we identified significant discrepancies between the
systems with regard to the number and type of inspections conducted
and the hours spent conducting the inspections. Further, we found that
data contained in the N-Spect database contained significant errors. For
example, while preparing responses to our data requests, ATF officials
determined that several hundred inspections entered as compliance
inspections were actually application inspections. In addition, the data
in the systems differed significantly from the data the ATF included in
published reports. We discussed these inconsistencies with ATF
Headquarters officials, and they gave two reasons for the inconsistencies.
They stated that there were differences in how the queries of the N-Spect
electronic database were constructed by different ATF analysts, and that

       10  N-Spect tracks direct time related to FFL inspections, FLS tracks information
related to FFL licensees, and the STATS timekeeping system tracks direct and indirect
hours for payroll purposes.

U.S. Department of Justice                                                       ix
Office of the Inspector General
Evaluation and Inspections Division
Field Division staff did not use the correct project codes because the
codes are “confusing.”

       To improve the future tracking of inspection data, in October 2003
the ATF implemented a new version of N-Spect that requires Field
Division staff to use pull-down menus that are inspection-specific (e.g.,
“Application Inspection”). Although the enhancements to the N-Spect
database will increase the reliability of the data in the system, the ATF
must nonetheless adopt a standard approach for querying the N-Spect
electronic database to ensure that requests for the same data will elicit
comparable results. If the ATF does not adopt a standard method for
querying and extracting historical data, it cannot consistently report
accurate performance data.

New Restriction on Retention of Gun Purchaser Data Will Reduce
the ATF’s Ability to Detect Fraudulent Background Checks

       Prior to selling a gun, an FFL must determine if the potential
purchaser is prohibited from owning a gun by querying the Federal
Bureau of Investigation’s (FBI) National Instant Criminal Background
Check System (NICS) directly through the FBI or through a designated
state agency. For each query, the FBI’s NICS currently retains for 90
days whether or not the sale was approved and information on the
purchaser. However, beginning in July 2004 all purchaser information
on NICS queries that do not result in a denial will no longer be kept for
90 days, but will be destroyed within 24 hours of the official NICS
response to the FFL.11 To comply with this requirement, the FBI has
stated that it intends to expunge purchaser information for approved
sales from NICS records overnight. For these approved sales, the FBI will
retain for 90 days only the NICS Transaction Number (NTN), the license
number of the FFL that contacted NICS, and the date that the NICS
query was made. After 90 days, the FBI will retain only the NTN and the
date that the number was issued.

      For most FFLs, NICS is a valuable tool that enables them to
quickly determine whether a potential customer is prohibited from
buying firearms. However, a small number of corrupt gun dealers may
attempt to hide transfers to prohibited persons by falsifying NICS
information, such as by listing the prohibited buyer on the sales record
but calling in to the FBI the name of a person with a clean record.

       11   The Fiscal Year 2004 Consolidated Appropriations Bill (Public Law 108-199)
states that the Department of Justice cannot retain “identifying information” related to
sales of firearms to non-prohibited persons for more than 24 hours. However, all
information related to calls for which potential sales are denied by NICS will be retained
indefinitely.

U.S. Department of Justice                                                         x
Office of the Inspector General
Evaluation and Inspections Division
Currently, the ATF rechecks recent sales records with NICS to verify the
information that the FFLs submitted. The ATF reported that it has not
found any NICS violations involving the falsification of purchaser
information through these reviews, but officials said the checks serve as
a deterrent. However, the reduced retention period for approved
purchaser and FFL information will limit the ATF’s ability to detect
certain fraudulent NICS checks through FFL inspections, since the ATF
will no longer be able to verify the information that the dealers submitted
by rechecking sales records at the FFL.

CONCLUSIONS

      Our review found the ATF’s FFL inspection program is too limited
and inconsistent to ensure that FFLs comply with federal firearms laws.
In FY 2002, the ATF inspected only 4.5 percent of the approximately
104,000 FFLs to ensure they were complying with federal firearms laws.
Although we recognize that the ATF’s resources are limited, we concluded
that the ATF’s lack of standardized inspection procedures results in
inconsistent inspections of FFLs and significant variation in the
implementation of the inspection program by Field Divisions. The most
recent performance data available show that ATF’s Field Divisions took
from 24.5 hours to as much as 90 hours per compliance inspection.
Further, we found little or no correlation between longer inspection times
and outcomes such as criminal referrals and adverse actions taken. We
concluded that the ATF needs a more standardized and efficient
inspection regimen.

       Because the ATF does not conduct regular inspections of all FFLs,
it cannot effectively monitor the overall level of FFL compliance with
federal firearms laws. In December 2003, the ATF directed Field
Divisions to conduct Random Sample Compliance Inspections. Using
data from those inspections, the ATF planned to “be able to project the
overall level of compliance by” gun dealers, pawnbrokers, and
collectors.12 While the project to estimate the overall level of compliance
with laws is needed to assess the challenge facing the ATF, it cannot take
the place of regular compliance inspections for deterring and identifying
noncompliance with gun laws.

      To ensure that all FFLs are treated consistently, and that the FFL
inspection program is as efficient as possible to maximize the number of
inspections conducted annually, a national ATF policy should require

       12 Memorandum, Assistant Director for Firearms, Explosives, and Arson to All
Special Agents In Charge, December 8, 2003. ATF officials told us that the
memorandum was not distributed to the Field Divisions until January 2004.

U.S. Department of Justice                                                   xi
Office of the Inspector General
Evaluation and Inspections Division
that inspections be conducted in a uniform manner, that inspections
procedures are limited to the steps needed to accomplish a valid review,
and that violations are processed in a uniform and appropriate manner.
A consistent and timely inspection process is essential for identifying and
addressing scofflaw dealers and for reducing the availability of illegal
firearms to criminals.

RECOMMENDATIONS

       We recommend that the ATF:

       1. Develop a standard, streamlined inspection process that
          includes in-person inspections of all FFL applicants; more
          efficient inventory and records reviews; automated inspection
          reporting; and consistent examination of indicators of firearms
          trafficking.

       2. Conduct a pilot project to test the streamlined inspection
          procedures and establish appropriate time standards for
          conducting these inspections.

       3. Revise the staffing requirement report using the time standards
          to reflect the number of Inspectors needed to conduct
          compliance inspections on a triennial basis, or on an alternative
          schedule based on the FFL’s compliance history.

       4. Develop alternatives for better aligning Inspector resources with
          the distribution of FFLs, such as by redrawing Field Division
          boundaries, realigning personnel, or other methods.

       5. Update the inspection tracking system to accurately segregate
          and report on Inspector time spent preparing for inspections, in
          travel, on-site at FFLs, and conducting other administrative
          duties.

       6. Prepare quarterly reports on the productivity and results
          achieved by each Field Division.

       7. Direct the National Licensing Center to develop an adverse
          action tracking system to monitor the progress and timeliness
          of FFL denials and revocations from the time an Inspector
          makes a recommendation until the proceedings are finalized.




U.S. Department of Justice                                             xii
Office of the Inspector General
Evaluation and Inspections Division
       8. Continue coordinating with the Department of Justice, Office of
          Legislative Affairs, to gain the authority to suspend or impose
          civil penalties on FFLs that violate federal firearms laws.

       9. To improve the comprehensiveness of crime gun tracing by law
          enforcement agencies:

          a. Coordinate with the Office of Justice Programs to determine
             the feasibility of using discretionary grant funding to support
             crime gun tracing.

          b. Develop a model for more accurately identifying potential
             firearms trafficking through the analysis of an FFL’s firearms
             sales volume and the number of firearms traced to the FFL.




U.S. Department of Justice                                          xiii
Office of the Inspector General
Evaluation and Inspections Division
                                    TABLE OF CONTENTS


Background......................................................................................... 1

Purpose, Scope and Methodology ..................................................... 14

Results of the Review........................................................................ 17

        The ATF Does Not Conduct In-Person Application Inspections on
        All New FFLs ...................................................................................... 17

        The ATF Does Not Regularly Conduct Compliance Inspections
        on Active FFLs, Including Large-Scale Retailers .................................. 20

        ATF Does Not Identify and Inspect All FFLs That Exhibited Indicators
        of Potential Violations or Gun Trafficking........................................... 23

        Gun Tracing Has Significant Shortcomings That Limit Its Use for
        Identifying FFLs That Should Be Inspected ........................................ 24

        ATF’s Field Divisions Implement FFL Inspections Inconsistently......... 28

        Suspected Criminal Violations Are Not Always Referred
        for Investigation ................................................................................ 37

        ATF Acts Infrequently to Revoke Federal Firearms Licenses
        and the Process is Not Timely ............................................................ 39

        New ATF Guidelines Begins to Address Inconsistent and
        Untimely Adverse Actions .................................................................. 43

        By Streamlining and Standardizing Inspections, the ATF Could
        Dramatically Improve the FFL Inspection Program ............................. 45

        ATF Does Not Consistently Report Inspection Performance ................ 49

        New Restriction on Retention of Gun Purchaser Data Will Hinder
        the ATF’s Ability to Detect Fraudulent Background Checks................ 51


Conclusions ..................................................................................... 54

Recommendations ........................................................................... 56



U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
Appendix I: ATF Form 4473 ........................................................... 58

Appendix II: Area Supervisor Survey .............................................. 60

Appendix III: ATF Comments on the Draft Report......................... 66

Appendix IV: OIG Analysis of the ATF’s Comments.…………… ....... 85




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                      BACKGROUND


       The Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF)
enforces federal firearms laws and regulations, including issuing licenses
and overseeing Federal Firearms Licensees (FFLs) and most explosives
licensees and permittees. The ATF enforces federal firearms laws, in
part, by conducting regulatory inspections of FFLs. These inspections
examine whether FFLs are keeping proper records and are taking proper
steps to avoid selling firearms to prohibited persons (see inset).

FFL Licensing and Operational
Requirements                                            Individuals Prohibited From
                                                            Purchasing Firearms
       To obtain a license for                    Individuals prohibited by federal law from
making or selling firearms,                   possessing a firearm include anyone who:
applicants must be at least 21                    1. has been convicted of a crime punishable
years old and not prohibited from                     by more than one year in prison;
                                                  2. is a fugitive from justice;
possessing firearms. Applicants
                                                  3. unlawfully uses controlled substances;
are required to notify the chief                  4. has been adjudicated as mentally
officer of their local law                            defective;
enforcement agency (LEA) that                     5. is an illegal alien, or an alien admitted to
they intend to apply for a license,                   the United States under a nonimmigrant
                                                      visa;
and must submit a photograph
                                                  6. has been dishonorably discharged from
and a full set of fingerprints with                   the Armed Forces;
their applications, as well as a                  7. has renounced his or her American
statement certifying that their                       citizenship;
business is in compliance with all                8. is a subject of a court order that restrains
                                                      the person from harassing, stalking, or
state and local laws (including
                                                      threatening an intimate partner; or
zoning laws). Application                         9. has been convicted of a misdemeanor
examiners at the ATF National                         crime of domestic violence.
Licensing Center (NLC) in Atlanta,                Individuals under indictment for a crime
Georgia, determine the eligibility            punishable by more than one year of prison are
                                              prohibited from receiving a firearm, but may
of applicants for Federal Firearms
                                              lawfully possess a firearm they obtained before
Licenses.13 Fees for federal                  being indicted.
firearms dealer licenses are $200
                                              Source: Title 18 U.S.C. Chapter 44
for the first three years and $90
for each three-year renewal period.


       13   The NLC maintains the Federal Licensing System (FLS) database and is the
official repository of firearms and explosives inspection reports. Certain information
from inspection reports is captured in the FLS, including dates of inspections and past
regulatory enforcement actions taken against FFLs. The NLC also oversees the ATF’s
Hearing Officer program for conducting adverse action hearings involving FFLs.

U.S. Department of Justice                                                         1
Office of the Inspector General
Evaluation and Inspections Division
As of December 2003, there were approximately 104,300 FFLs in the
United States, including approximately 65,700 retailers.14

       Each year, FFLs conduct more than 8.5 million firearms sales.15
To reduce the availability of firearms to criminals, FFLs are required to
verify that potential customers are not prohibited from possessing a
firearm and to verify that customers are residents of the state in which
the FFL is located. FFLs must verify the identity of potential customers
by examining a government-issued identification document, such as a
driver’s license, and have the customer complete a Form 4473, Firearms
Transaction Record, which captures data related to the purchaser and
firearm(s) purchased (see Appendix I). The FFLs also contact the Federal
Bureau of Investigation (FBI) or a statewide LEA to request that the
National Instant Criminal Background Check System (NICS) be queried
to confirm that the potential customers are not prohibited from
purchasing firearms.16 Most NICS queries result in an immediate
response to the FFL regarding purchaser eligibility. In cases where an
immediate response is not given, FFLs are allowed to complete the
transaction after three business days if NICS is unable to complete the
check within that time. If the purchaser is later determined to be
prohibited from possessing a gun, the ATF seeks to remove the gun from
the purchaser’s possession.17

      Federal law requires that FFLs maintain completed Forms 4473, as
well as a log of all firearms that they have acquired and sold, known as
an Acquisition and Disposition Book (A&D Book). The A&D Book must


       14  Firearms retailers are issued either Type 1 (storefront retailer) or Type 2
(pawnshop) federal firearms licenses. Other types of FFLs include manufacturers and
importers of firearms or ammunition, ammunition dealers, and collectors of curios or
relics. Largely as a result of increases in license fees and the ATF’s requirement that all
FFLs comply with state and local zoning laws, the FFL population has decreased from a
high of more than 286,000 in March 2000.

      15 “Federal Bureau of Investigation National Instant Criminal Background

Check System 2001/2002 Operational Report,” FBI Publication, May 2003.

       16 The Brady Handgun Violence Prevention Act, Public Law 103-159, Title 18

U.S.C. § 922(s). The NICS, operated by the FBI, was created to facilitate the required
background checks. FFLs can also query NICS via the Internet, through the FBI's NICS
E-Check system.

       17  ATF Special Agents attempt to remove the firearm from the prohibited
person’s possession by informing the purchaser of his or her “prohibited status” and
offering options for them to surrender the firearm. Options include returning the
firearm to the FFL that sold it, transferring the firearm to a non-prohibited third party,
or surrendering the firearm to an LEA.

U.S. Department of Justice                                                          2
Office of the Inspector General
Evaluation and Inspections Division
contain information including a description of the firearm, the name and
address of the person from whom the firearm was acquired and, once
sold, the name and address of the purchaser and the date the gun was
sold.18 FFLs also are required to report sales of multiple handguns to the
same purchaser.19 Combined, these record-keeping requirements are
intended to deter the illegal transfer of firearms to prohibited persons.

       The records kept by FFLs also enable the ATF to trace firearms
recovered by LEAs to learn when those firearms were purchased and by
whom. According to the ATF, less than 5 percent of firearms are used in
violent crimes by the person who originally purchased the gun from an
FFL. Guns used in violent crime are generally acquired through a
secondary market of traffickers and “straw purchasers” (individuals that
buy firearms for prohibited individuals).20 Nonetheless, tracing is a
significant investigative tool because it can provide investigators leads to
the subsequent purchaser(s) of the firearm.

The ATF’s FFL Inspection Program

       The ATF’s FFL inspection program uses a cadre of Inspectors to
verify that FFLs are complying with federal firearms laws and that
tracing data provided by FFLs are accurate and timely. The Inspectors
do not have the authority to arrest individuals, do not carry firearms,
and do not conduct criminal or undercover investigations. Before the
enactment of the Homeland Security Act of 2002, the ATF had 567
Inspectors.21 As directed by the Homeland Security Act, in February
2003 the tax and regulatory responsibilities of the ATF were split, and
most regulatory functions were transferred from the Department of the



       18  If a firearm is obtained from another FFL, the FFL receiving the firearm can
enter the other licensee’s FFL number instead of the name and address of the previous
owner. Sales must be recorded in the A&D Book within seven days from the time the
Form 4473 is completed.

       19 According to Title 18 U.S.C. § 923(g), an FFL must submit a “Report of

Multiple Sale or Other Disposition of Pistols and Revolvers,” to the ATF if an individual
purchases more than one handgun within a period of five consecutive business days.

       20   An unlicensed individual may sell a firearm to an unlicensed resident of his
or her State, if the buyer is not prohibited by law from receiving or possessing a firearm,
or to a licensee in any State (Title 18 U.S.C. § 922).

       21 Testimony of ATF Director Bradley Buckles to the Senate Committee on the
Judiciary, June 11, 2002.


U.S. Department of Justice                                                         3
Office of the Inspector General
Evaluation and Inspections Division
Treasury to the Department of Justice.22 The new title of the agency
                                                   TP   PT




within the Department of Justice became the Bureau of Alcohol,
Tobacco, Firearms and Explosives. As of August 2003, the ATF had 498
Inspectors. Of the 498 Inspectors, approximately 420 were assigned to
Industry Operations groups located throughout the ATF’s 23 Field
Divisions. The remaining Inspectors were assigned to the ATF
Headquarters and various management positions.

       A typical ATF Field Division structure included a Special Agent In
Charge to oversee the operations of the office, a Director of Industry
Operations (DIO), and two or three Area Offices, which were managed by
an Area Supervisor. Most
Field Divisions also had               Figure 1: Field Division Organization Chart
at least one Senior
Operations Inspector to
assist with large-scale
FFL inspections
(Figure 1).

      To implement the
FFL inspection program,
ATF Inspectors conduct
four different types of
inspections:

            •        Application
                     inspections
                     verify that an
                     applicant for a
                     federal firearms
                     license is eligible
                     for a license and
                     agrees to follow    Source: ATF Field Operations Directorate.
                     federal laws
                     related to buying and selling firearms. These inspections may
                     be conducted either over the telephone or in-person. The
                     Inspectors interview the individual applying for the license and,

       22
       TP The Act created the Alcohol and Tobacco Tax and Trade Bureau (TTB) within
                PT




the Department of the Treasury to administer and enforce existing federal laws and tax
code provisions related to alcohol and tobacco products. According to the ATF, about
60 Inspectors and 19 attorneys accepted positions at the TTB. As a result of a
Memorandum of Agreement between the ATF and the TTB, an additional 40 Inspectors
were detailed from the ATF to the TTB for seven months, from March through
September 2003.

U.S. Department of Justice                                                      4
Office of the Inspector General
Evaluation and Inspections Division
                     during in-person inspections, also interview store employees.
                     According to ATF Headquarters officials, the ATF focuses on
                     conducting application inspections on new businesses and
                     generally does not inspect new collectors. 23 TP   PT




            •        Compliance inspections examine whether an FFL is complying
                     with federal firearms laws, including ensuring that Forms 4473
                     (Firearms Transaction Record) and A&D Books are maintained
                     accurately. Except in very limited circumstances, the ATF is
                     prohibited by law from inspecting an FFL more than once a
                     year.24
                         TP   PT




       •             Renewal inspections verify the accuracy of renewal application
                     information and determine if an FFL’s license should be
                     renewed. The ATF categorizes all renewal inspections as
                     compliance inspections for performance measurement
                     purposes, although they are generally less rigorous than other
                     compliance inspections.

       •             Limited purpose inspections are narrowly scoped inspections
                     conducted for a specific purpose. For example, an Inspector
                     may visit a store to review and approve an FFL’s new inventory
                     software or to examine Forms 4473 for a particular firearm
                     used in a crime. The ATF categorizes all limited purpose
                     inspections as compliance inspections for performance
                     measurement purposes.

      According to the ATF’s published reports and draft reports
provided to the OIG, Inspectors conducted 5,497 application inspections
during fiscal year FY 2001, 7,229 application inspections in FY 2002,
and 8,422 application inspections in FY 2003. The ATF has also
reported that Inspectors conducted 5,016 compliance inspections in
FY 2001, 5,802 compliance inspections in FY 2002, and 6,481
compliance inspections in FY 2003 (Figure 2). 25         TP   PT




       23 A collector’s license enables individuals to make interstate sales and
       TP       PT




purchases of firearms classified by the ATF as curios and relics to facilitate a personal
firearms collection.

       24
       TPFirearms Owners Protection Act of 1986, Public Law 99-308, Title 18 U.S.C.
                PT




Chapter 44.

       25
       TP As described in the results section of this report, inspection data in the ATF’s
                PT




inspection tracking database do not support these published numbers. According to
the inspections database, ATF Inspectors conducted 5,729 application inspections and
4,035 compliance inspections in FY 2001; 8,123 application inspections and (cont.)

U.S. Department of Justice                                                          5
Office of the Inspector General
Evaluation and Inspections Division
                        F ig u re 2 :   R e p o r t e d F F L In s p e c t io n T o t a ls
                                         F Y 2 0 0 1 to F Y 2 0 0 3



           1 6 ,0 0 0



           1 4 ,0 0 0



           1 2 ,0 0 0                                          6 ,4 8 1
                                              5 ,8 0 2


           1 0 ,0 0 0
                                                                               C o m p lia n c e , R e n e w a l,
                                                                               a n d L im ite d P u r p o s e
   Total




            8 ,0 0 0        5 ,0 1 6                                           In s p e c tio n s

                                                                               A p p lic a tio n
                                                                               In s p e c tio n s
            6 ,0 0 0


                                                               8 ,4 2 2
            4 ,0 0 0                          7 ,2 2 9

                            5 ,4 9 7

            2 ,0 0 0



                   0
                           2001              2002             2003
                                        F is c a l Y e a r




 Source: Firearms in Commerce in the United States 2001/2002, ATF 2003 Performance and Accountability
 Report, ATF Firearms Programs Division.



The ATF’s Regulatory Enforcement Actions

        When the ATF finds that an FFL has violated the Gun Control Act
or its implementing regulations, it may take one of several actions.26 For
minor infractions (e.g., missing ZIP code on a Form 4473), the FFL may
be given a Report of Violations, which notifies the FFL of violations that
should be corrected. For more serious infractions, the FFL may be sent a

4,581 compliance inspections in FY 2002; and 8,043 application inspections and 5,887
compliance inspections in FY 2003, rather than the previously reported totals.

            In the context of the Gun Control Act, willfulness is the intentional disregard
           26

of, or plain indifference to, legal obligations (Title 18 U.S.C. § 924). It can be
demonstrated through repeat violations (especially where there was notification of prior
violations) or large numbers of violations. Sometimes one egregious violation, such as a
straw sale to a prohibited person, can demonstrate willfulness (ATF B 5370.1 p.2).

U.S. Department of Justice                                                                              6
Office of the Inspector General
Evaluation and Inspections Division
warning letter, or it may be directed to attend a warning conference. At a
warning conference, an FFL is notified that it must correct its practices
or lose its license. For severe or repeat violations deemed willful, the ATF
may revoke or deny renewal of the FFL’s license.

       The revocation process begins when an ATF Inspector recommends
revocation because of severe or repeated violations. If the Area
Supervisor approves the Inspector’s recommendation, the inspection
report and supporting documentation are
                                                         FFL Education Efforts
submitted to the DIO. After consulting with
the Division Counsel, the DIO can issue an          In addition to regulatory
Initial Notice of Revocation. If an Initial     enforcement, the ATF educates FFLs and
Notice of Revocation is issued, the FFL has     others on federal firearms laws through
                                                seminars and programs. In FY 2002,
15 days to appeal the proposed revocation
                                                the ATF conducted 183 “commodity
and request a hearing. Revocation hearings      seminars” for FFLs, LEAs, and the
are conducted in the field by ATF Inspectors    public. At many of these seminars, the
who are specially trained to act as Hearing     ATF supplied FFLs with the “Don’t Lie
Officers. As of September 1, 2003,              For the Other Guy” packet prepared by
                                                the National Shooting Sports
23 Inspectors served as Hearing Officers as
                                                Foundation. The packet includes a
a collateral duty to their regular tasks and    poster, pamphlet, and a videotape to
11 additional Inspectors had completed          help FFLs identify firearms traffickers.
training to become Hearing Officers.            As of October 2003, approximately
Hearing Officers are assigned from Field        23,000 FFLs had received the packet.
Divisions other than the Divisions
proposing the revocation. At the hearing, the Hearing Officer examines
the facts and hears testimony from the ATF and the FFL. After the
hearing, the Hearing Officer prepares a report of findings and
recommendations for the DIO.

      After receiving the Hearing Officer’s report, the DIO can allow the
FFL to retain his license, or issue a Final Notice of Revocation. If a Final
Notice of Revocation is issued, the FFL has 60 days to appeal the
revocation to U.S. District Court. If the FFL appeals, the ATF routinely
submits a Motion for Summary Judgment asking the Court to uphold the
agency’s determination.

      In FY 2002, Inspectors conducted 25 revocation hearings. Of
those, 22 resulted in the revocation of the FFL’s license. The number of
revocation hearings increased to 87 during FY 2003.27

      Other than issuing warning letters, holding warning conferences,
and revoking licenses, the ATF has few enforcement options. As of

       27   As of March 1, 2004, most of these cases were still pending.

U.S. Department of Justice                                                 7
Office of the Inspector General
Evaluation and Inspections Division
March 2004, the ATF had very limited authority to impose fines and
suspend an FFL’s license.28 This limited authority can occur only under
                                                 TP   PT




a specific circumstance where an FFL failed to conduct a NICS check
and, had the check been conducted, it would have discovered that the
customer was a prohibited person. As an alternative to revoking
licenses, as of March 2004 the ATF’s General Counsel was seeking,
through the Department of Justice Office of Legislative Affairs, the
authority to suspend or fine FFLs who violate firearms laws.

The ATF Firearms Tracing Program

       In 1994, the ATF consolidated its tracing activities at the National
Tracing Center (NTC) in Falling Waters, West Virginia. The NTC traces
the purchase histories of “crime guns” recovered by federal, state, local,
and international LEAs.29 The ATF defines a “crime gun” as any firearm
                                  TP        PT




that is “illegally possessed, used in a crime, or suspected by law
enforcement officials” of having been used during the commission of a
crime. Crime gun tracing data can identify potential firearms trafficking
and unlawful business practices by FFLs. The ATF has the following
tracing-based indicators of firearms trafficking:

       •         Short Time-to-Crime. The recovery of a crime gun within 2 to 3
                 U                                         U




                 years after its initial purchase is considered a short time-to-
                 crime and a significant trafficking indicator. According to the
                 ATF, about one-third of crime guns were recovered within
                 3 years of their first retail purchase. The short time from retail
                 sale to use in a crime “suggests illegal diversion or criminal
                 intent associated with the retail purchase from the FFL.”30   TP   PT




       •         Multiple Sales of Handguns. According to the ATF, 20 percent
                 U                                                      U




                 of all handguns traced in 2000 had been originally purchased
                 as part of a multiple handgun sale. FFLs are required to report
                 multiple handgun sales to the NTC.


       28 Title 18 U.S.C. § 922 states “the Attorney General may, after notice and
       TP   PT       T                                         T




opportunity for a hearing, suspend for not more than 6 months or revoke any license
issued to the licensee under Section 923, and may impose on the licensee a civil fine of
                                       HT                          TH




not more than $5,000.”

       29
       TP International trace requests are received directly from foreign law
            PT




enforcement agencies via fax or through electronic transmission from ATF Country
Attaché offices in Colombia, Mexico, and Canada. From January 1, 2003, to
March 31, 2003, NTC traced 8,108 firearms for foreign governments.

       30
       TP   PT   “Crime Gun Trace Reports (2000),” ATF, July 2002.

U.S. Department of Justice                                                               8
Office of the Inspector General
Evaluation and Inspections Division
       In requesting a trace of a crime gun, an LEA supplies the ATF with
information including the make, model, serial number, and other
identifying characteristics of the gun and the circumstances of its
recovery.31 Using that information, an ATF analyst contacts the
                               TP         PT




manufacturer of the firearm to determine which FFL purchased the gun.
The analyst then contacts the FFL identified by the manufacturer to
obtain information on the retail purchaser from the appropriate
Form 4473 and A&D Book entry. FFLs are required by law to respond to
firearms trace requests from the ATF within 24 hours.32 According to the                 TP   PT




NTC Director, the NTC performed 232,272 firearms traces in FY 2001,
240,651 firearms traces in FY 2002, and 280,947 firearms traces in
FY 2003.33 The NTC defines a successful trace as one in which the initial
                                    TP         PT




retail purchaser of the crime gun is identified. According to the NTC
Director, 50 to 60 percent of traces requested in FY 2003 succeeded.

      Trace data can be categorized to identify those guns that are most
often used in crime. For example, in 2000 the Smith & Wesson
.38 caliber revolver was the most frequently traced firearm recovered by
LEAs.34 Using trace information, the NTC offers several analytical
       TP            PT




products to LEAs, such as:

                 •                       statistical analyses to identify indicators of firearms trafficking;

                 •                       data on potential violations of regulations, such as unreported
                                         multiple sales of handguns, stolen firearms, and firearms with
                                         obliterated serial numbers; and




           Each firearm made in or imported to the United States must possess a serial
            31
            TP            PT




number “which may not be readily removed, obliterated, or altered” and must be unique
to each firearms manufacturer or importer.

            32
            TP            PT   Title 18 U.S.C. § 923(g)(7).

        33 The Youth Crime Gun Interdiction Initiative (YCGII) program, currently
            TP            PT




operating in 60 cities, is the ATF’s major initiative to encourage LEAs to trace recovered
firearms. The program has been successful at increasing the number of firearms trace
requests submitted to the ATF by LEAs participating in the program. To join the YCGII
program, LEAs must sign a Memorandum of Understanding (MOU) with the ATF in
which the LEAs agree to make comprehensive firearms tracing a “primary goal and
objective” of their agencies. The ATF funds FFL inspections in these cities through
YCGII appropriations.

            34
            TP            PT   “Crime Gun Trace Reports (2000),” ATF, July 2002.

U.S. Department of Justice                                                                             9
Office of the Inspector General
Evaluation and Inspections Division
       •         data on firearms transaction records received from FFLs that
                 have ceased business operations.35    TP   PT




       Demand Letter Programs. Because some FFLs either ignored trace
       U                                       U




data requests or were unable to provide NTC analysts with purchaser
information from Forms 4473 and their A&D Books, the ATF initiated the
Demand Letter I Program in February 2000. The Demand Letter I
Program covers FFLs deemed “Uncooperative” by NTC officials because
they failed to provide the ATF with purchaser information. FFLs deemed
“Uncooperative” are required to submit all Forms 4473 for the previous
three years and to continue to submit these Forms on a monthly basis
until the ATF determines that they are cooperating. Forty-one FFLs were
originally placed in this category. As of April 2004, no FFLs were
designated as uncooperative.

      Also in February 2000, the ATF initiated the Demand Letter II
Program to address FFLs with frequent short time-to-crime traces. The
Demand Letter II Program requires FFLs with 15 or more traces of guns
within 3 years of initial purchase to submit information quarterly on
previously owned firearms acquired from non-FFLs. Originally, 430 FFLs
were placed in this category.36 As of April 2004, 271 FFLs were in this
                                     TP   PT




category. The actual “Demand Letter” sent to FFLs states that if the
FFLs do not respond to the NTC’s requests for firearms tracing
information, the FFLs’ licenses could be revoked. The NTC forwards lists
of FFLs subjected to either Demand Letter program to ATF Field
Divisions on an annual basis.

       Firearms Trafficking Analysis. The ATF’s Crime Gun Analysis
       U                                           U




Branch (CGAB), co-located with the NTC in West Virginia, analyzes data
from crime gun traces, multiple sales, and firearms thefts, and provides
firearms trafficking analysis to Inspectors, Special Agents, and LEAs.
The CGAB uses crime gun data maintained by the NTC to focus on
specific U.S. geographic areas in which firearms trace patterns indicate
firearms trafficking.37 For example, CGAB analyzes tracing data to
                           TP   PT




determine the geographic areas where crime guns were recovered, a


        35 By law, FFLs are required to provide their firearms transaction records to
       TP   PT




NTC when they go out of business (Title 18 U.S.C. § 923(g)(4)). The NTC is the only
federal repository for this data.

       36
       TP  Originally, FFLs with ten or more short time-to-crime traces were included in
            PT




this category.

       37
       TP  The CGAB is a unit of the Intelligence Programs Division, which is under the
            PT




Office of Strategic Intelligence and Information.

U.S. Department of Justice                                                       10
Office of the Inspector General
Evaluation and Inspections Division
process known as geo-mapping. This information is shared with LEAs,
to enable them to better focus their law enforcement activities.

      The CGAB also develops numerous statistical and informational
products. For example, “master queries” of all crime guns traced
nationwide (grouped by county) can be used to identify FFLs that should
be inspected. The “NTC Weekly Queries of FTS Data,” disseminated to all
users of the CGAB’s electronic database, shows “firearms trafficking
indicators,” such as firearms purchased as part of a multiple sale. The
CGAB also develops investigative leads that are researched and
forwarded to the appropriate ATF Field Division, and it provides
information and support to promote the tracing of all recovered crime
guns by LEAs across the United States. Finally, the CGAB monitors and
forwards to ATF agents information on theft reports, firearms traces, and
multiple sale transactions from FFLs that are under investigation.

       In FY 2002, CGAB provided firearms tracing data for 1,639 FFLs
and completed 46 geo-mapping projects for ATF Field Divisions (see
Figure 3 on page 13). The CGAB also researched and forwarded 138
referrals to ATF Field Divisions for potential investigations based on
accumulated firearms tracing data, and was given authority over ATF’s
program to “raise” obliterated serial numbers on recovered firearms.38

      Regional Crime Gun Centers. In 1996, the ATF began to establish
Regional Crime Gun Centers (RCGC) in cities in which gun violence
presented a significant public risk and high amounts of crime guns were
recovered. Before the establishment of the RCGCs, the NTC’s ability to
provide crime gun analysis for these areas and the rest of the country
was, according to the NTC Director, “limited” compared to the micro-
analysis conducted at RCGCs. The NTC now oversees RCGCs in
Chicago, Los Angeles, New York, and Washington, D.C.39 The RCGCs are
organizationally part of the local ATF Field Division and serve as a liaison
and local analysis unit for crime gun tracing for local LEAs.

       Disclaimer on the use of firearms tracing data: Section 630 of the
Fiscal Year 2004 Consolidated Appropriations Act mandates that the ATF
and all federal government agencies which use trace data in a report
clearly state the shortcomings of trace data, as follows:


       38   “CGAB Performance Indicators,” FY 2002.

       39   We visited RCGCs in Chicago and Los Angeles during our fieldwork. At a
third field site, in Miami, ATF personnel told us that the Miami Field Division is
establishing a “gun intelligence center” similar to a RCGC.

U.S. Department of Justice                                                    11
Office of the Inspector General
Evaluation and Inspections Division
       Firearm traces are designed to assist law enforcement
       authorities in conducting investigations by tracking the sale
       and possession of specific firearms. Law enforcement
       agencies may request firearms traces for any reason, and
       those reasons are not necessarily reported to the federal
       government. Not all firearms used in crime are traced and
       not all firearms traced are used in crime. Firearms selected
       for tracing are not chosen for purposes of determining which
       types, makes or models of firearms are used for illicit
       purposes. The firearms selected do not constitute a random
       sample and should not be considered representative of the
       larger universe of all firearms used by criminals, or any
       subset of that universe. Firearms are normally traced to the
       first retail seller, and sources reported for firearms traced do
       not necessarily represent the sources or methods by which
       firearms in general are acquired for use in crime.




U.S. Department of Justice                                           12
Office of the Inspector General
Evaluation and Inspections Division
                     Figure 3: Sample ATF Gun Recovery Geo-Map




       Source: ATF Southern California Regional Crime Gun Center.




U.S. Department of Justice                                          13
Office of the Inspector General
Evaluation and Inspections Division
                     PURPOSE, SCOPE, AND METHODOLOGY


Purpose

      The Office of the Inspector General (OIG) conducted this review to
assess the effectiveness of the ATF’s program for inspecting FFLs and to
examine how this program assists in enforcing federal firearms laws.

Scope

       The scope of this review included examining histories for firearms
retailers categorized either as Type 1 or Type 2 dealers. We did not
review inspection histories of FFLs issued other license types, such as
those issued licenses for producing or importing firearms and
ammunition, or collectors of curios or relics. We also reviewed inspection
histories for FFLs whose licenses were revoked or are in the process of
being revoked. Inspection histories included application information,
inspection worksheets, and Inspector reports, as well as reports and
memoranda related to any regulatory action taken by the ATF against the
FFL. However, we reviewed the impact of all license types on inspection
activities, including workload and inspection outcomes.

      The ATF provided us with access to the two electronic information
systems containing licensee information, inspection information, and
reports – the Federal Licensing System (FLS) and N-Spect. To assist in
our assessment of how ATF officials target which FFLs to inspect, the
ATF also provided us with access to two electronic information systems
containing information on firearms tracing – the Firearms Tracing
System (FTS), and Online LEAD.

Methodology

      Interviews. We conducted in-person and telephone interviews with
personnel from ATF Headquarters, ATF Field Divisions, United States
Attorneys’ Offices, law enforcement agencies (LEAs), firearms retailers,
and advocacy groups. Specifically, we interviewed individuals from ATF’s
Firearms, Explosives and Arson Directorate, Field Operations
Directorate; Office of Inspections; Office of the Chief Counsel; and
National Tracing Center. We spoke with Assistant United States
Attorneys (AUSAs) assigned to prosecute firearms-related offenses and to
Project Safe Neighborhood Coordinators, who are the AUSAs who
coordinate most firearms-related prosecutions. We spoke with law
enforcement officials assigned to firearms-related cases, and to those

U.S. Department of Justice                                        14
Office of the Inspector General
Evaluation and Inspections Division
responsible for submitting crime gun trace requests. We spoke with a
statistician who has worked with National Tracing Center data. We also
interviewed a California Department of Justice official responsible for
overseeing that state’s firearms licensee inspections program.40

       We spoke with three firearms retailers; representatives from
Taurus International, a firearms manufacturer; and a representative
from the National Association of Firearms Retailers. We also interviewed
officials from two advocacy groups – the National Rifle Association and
the Brady Center to Prevent Gun Violence.

        Field Site Visits. As part of our fieldwork, we interviewed
personnel and reviewed FFL inspection files at four of the ATF’s 23 Field
Division offices – Miami, Chicago, Los Angeles, and Seattle.41 We chose
these sites based on their geographic location, size, local crime trends,
and distribution of firearms inspection work. While at these locations,
we also interviewed local law enforcement officials and AUSAs to discuss
criminal prosecutions of FFLs and related issues. We reviewed 100
randomly selected inspection files to determine when the FFL was issued
a license to sell firearms, the frequency of ATF inspections, the extent
and intensity of those inspections, violations detected during those
inspections, and actions by ATF against the FFL.42 We also reviewed FFL
files for which the ATF revoked or was in the process of revoking the
FFL’s license. We also observed one FFL compliance inspection.

       Data. We relied on ATF electronic databases for information on
FFLs, inspections, Inspector work hours, and firearms tracing data, but
we noted discrepancies in the data, as detailed in the results section of
this report. After discussing the data discrepancies with ATF
Headquarters officials, we concluded that the N-Spect data were the most
accurate information for examining the numbers of inspections
conducted and the direct work hours expended for compliance and
applications inspections. However, the Standard Time and Attendance
System (STATS) database was the only data source available that
included all staff time. We therefore used this database to analyze


       40 California, which issues its own state firearms licenses, is one of the few

states with its own licensee inspection program.

       41We also visited the Field Division in Washington, D.C., to test our
methodology and data collection instruments.

       42We used Microsoft Excel to generate random numbers associated with FFL
numbers for the Field Divisions we visited. We used FLS to generate these FFL
numbers based on our inspection criteria.

U.S. Department of Justice                                                        15
Office of the Inspector General
Evaluation and Inspections Division
staffing requirements.43 We also examined the N-Spect data to
determine whether the variances affected our findings and confirmed
that the variances in inspection productivity and implementation
remained regardless of which data run we used. We used FLS to
determine FFL licensing histories and N-Spect to analyze Inspector
assignments and reports. We used information from the STATS and
N-Spect to examine Inspector workload. We used FTS to determine trace
histories of firearms sold by FFLs, and Online LEAD to review potential
firearms trafficking patterns.

       We also collected and analyzed prosecution data from the
Executive Office for United States Attorneys; ATF budget requests from
FY 2002 through FY 2005; internal ATF memoranda; ATF annual and
periodic reports; transcripts of congressional testimony by ATF officials;
judicial decisions; General Accounting Office reports on NICS; a
Congressional Research Service report on the potential of terrorist access
to firearms; a University of California, Los Angeles, study; and
Department of the Treasury Office of the Inspector General reports on the
ATF’s FFL and explosives inspection programs. Finally, we reviewed the
laws and regulations applicable to the ATF’s oversight of FFLs.

      Area Supervisor Survey. We conducted an e-mail survey of Area
Supervisors – those ATF personnel who assign FFL inspections and
approve inspection reports – to determine their views on ATF’s FFL
inspection program, “crime gun” tracing, and Inspector resources (see
Appendix II). Forty-five of 50 Area Supervisors replied by e-mail or fax, a
response rate of 90 percent.




       43 We also used the STATS data for examining staffing needs, since that was the
data that the ATF relied on to prepare the Inspector Staffing Requirements for the Bureau
of Alcohol, Tobacco, Firearms and Explosives report for the Justice Management Division
and Congress.

U.S. Department of Justice                                                      16
Office of the Inspector General
Evaluation and Inspections Division
                           RESULTS OF THE REVIEW


       The ATF’s FFL inspection program is not as effective
       as it should be for ensuring public safety by quickly
       identifying and revoking the licenses of FFLs that
       violate federal firearms laws.     The ATF does not
       inspect all applicants in person before licensing them
       to become firearms dealers, compliance inspections of
       FFLs (including large-scale retailers) were infrequent,
       and we found wide variations in productivity and
       program implementation among the ATF’s Field
       Divisions. Moreover, the ATF does not identify and
       conduct compliance inspections on all FFLs that
       exhibit indicators of gun trafficking. Finally, even
       when numerous or serious violations were found, the
       ATF did not consistently take adverse actions, refer
       FFLs for investigation, or conduct timely follow-up
       inspections.    We concluded that the ATF should
       streamline and standardize its FFL inspection
       procedures to improve the effectiveness of the FFL
       inspection program for ensuring that FFLs comply
       with federal firearms laws.


The ATF Does Not Conduct In-Person Application Inspections on All
New FFLs to Verify Applicant Information and Ensure That They
Understand Firearms Laws

       According to ATF Field Operations Directorate officials, application
inspections are critical for ensuring compliance with federal firearms
laws.44 Application inspections not only enable the ATF to better ensure
that the applicant is eligible for a federal firearms license, but also
provide the new dealer an opportunity to ask ATF Inspectors questions
and discuss with them issues related to firearms laws. Further, the ATF
officials said that if an FFL violates federal firearms laws after having
received an application inspection, it is easier for the ATF to meet the
legal standard of demonstrating that the violations were “willful” in order
to take adverse action.



       44  When an individual applies for a license to become a firearms dealer, the ATF
has 60 days after the completed application is received by the NLC to either issue a
license or deny the application (Title 18 U.S.C. § 923(d)(2)).

U.S. Department of Justice                                                      17
Office of the Inspector General
Evaluation and Inspections Division
       According to the ATF’s N-Spect database, which tracks inspections
activity, the ATF conducted 8,123 application inspections in fiscal year
(FY) 2002. According to the ATF’s FLS database, which tracks all
firearms licenses issued by the NLC, there were 15,359 newly licensed
FFLs in FY 2002.45 Of that number, 7,977 were licenses issued for
firearms businesses and 7,382 were issued to firearms collectors. By
examining the “inspection date” field included in the FLS record for each
FFL, we found that most (95 percent) of the FFLs that were inspected
were businesses, not collectors.46 Therefore, the data available to us
indicates that in FY 2002 the ATF inspected the preponderance of new
firearms retailers.

       However, our interviews and survey of ATF Headquarters and Field
Division personnel found that many of those application inspections
consisted only of a telephone call rather than an in-person visit. Ten of
the 45 Area Supervisors we surveyed (22 percent) said that, because of
limited Inspector resources, they directed Inspectors to perform at least
some application inspections by telephone. One Area Supervisor stated
that he assigned telephone application inspections because some
applicants were located as far as 400 miles from his Area Office. He said
that, in those cases, he tries to schedule an in-person compliance
inspection for the following year, but cannot guarantee that it will occur.

      ATF Headquarters officials, DIOs, Area Supervisors, and Inspectors
told us that application inspections conducted by telephone are not as
comprehensive as in-person inspections. For example, one important
action Inspectors take during in-person inspections is to interview
individuals who will work for the FFL. When application inspections are
conducted by telephone, the Inspectors do not routinely interview store
employees.

      Subsequent to the initiation of this review, in an October 8, 2003,
memorandum to ATF Field Divisions, the ATF Assistant Director for
Firearms, Explosives, and Arson issued new guidance on application
inspections. The new guidance stated that the ATF’s goal is to inspect all

        45 This includes all FFLs, including holders of the Type 3 collector license. A

collector’s license enables individuals to make interstate sales and purchases of
firearms classified by the ATF as curios and relics to facilitate a personal firearms
collection. ATF officials told us that they do not place a high priority on inspecting new
firearms collectors.

       46  The inspection date field was blank in 70 percent of the records, because no
inspection was done, the inspection report had not been forwarded by the Field
Division, or the report information had not been entered by the NLC. However, of the
4,722 records that had inspection dates, 4,493 (95 percent) were businesses.

U.S. Department of Justice                                                        18
Office of the Inspector General
Evaluation and Inspections Division
new FFL applicants to ensure that they understand federal firearms laws
before issuing them a federal firearms license. The memorandum
established as an initial milestone that “Inspectors should ensure that all
new applicants receive onsite inspections” at 14 select cities (emphasis in
original).47

       After receiving a draft of this report, the ATF attempted to more
precisely determine the number of inspections conducted by telephone.
Although in 2002 the N-Spect system did not capture the method by
which an inspection was conducted, ATF’s Field Management Staff
attempted to estimate the number of application inspections conducted
by telephone by querying the database to identify application inspections
with words such as “telephone” or “phone” in a “Special Instructions”
data field. The results of that query indicated that about 4 percent of
application inspection records had such remarks. However, because
there was no direction to the field to ensure consistent entry of
inspection methods, and because words such as “telephone” could be
entered for reasons other than to specify the inspection method, we
found these results unreliable.

       Although the new goal established in the October 8, 2003,
memorandum is a step in the right direction, the ATF still does not
comprehensively inspect all new applicants in person. Therefore, it
cannot verify the accuracy of the information that each applicant
provided to the NLC to become an FFL. Further, foregoing an in-person
inspection means that the applicants’ opportunity to ask questions of
ATF Inspectors is limited. While FFLs should understand and follow the
law, ATF personnel said that if an FFL fails to comply with federal
firearms laws, the lack of an application inspection makes it harder for
the ATF to meet the legal standard of proving that the violation was
“willful” in order to take adverse action.




        47 After receiving a draft of this report, the ATF attempted to more precisely

determine the number of inspections conducted by telephone. Although in 2002 the
N-Spect system did not capture the method by which an inspection was conducted,
ATF’s Field Management Staff attempted to estimate the number of application
inspections conducted by telephone by querying the database to identify application
inspections with words such as “telephone” or “phone” in a “Special Instructions” data
field. The results of that query indicated that about 4 percent of application inspection
records had such remarks. However, because there was no direction to the field to
ensure consistent entry of inspection methods, and because words such as “telephone”
could be entered for reasons other than to specify the inspection method, we found
these results unreliable.

U.S. Department of Justice                                                       19
Office of the Inspector General
Evaluation and Inspections Division
The ATF Does Not Regularly Conduct Compliance Inspections on
Active FFLs, Including Large-Scale Retailers

       According to the ATF Director, for the ATF to ensure compliance
with federal firearms laws, FFLs should receive a compliance inspection
at least once every three years. However, the ATF is currently unable to
even begin to meet that goal. We found that most FFLs are inspected
infrequently or not at all. ATF workload data show that the ATF
conducted 4,581 FFL compliance inspections in FY 2002, or
about 4.5 percent of the approximately 104,000 FFLs nationwide.48 At           TP   PT




that rate, it would take the ATF more than 22 years to inspect all FFLs.

      We reviewed inspection history files for a sample of 100 FFLs that
had been in business for an average of 11.2 years, and verified that they
did not receive regular compliance inspections (Figure 4).49 Specifically:
                                                                    TP   PT




            •        In 23 cases, the records showed that the ATF had never
                     conducted a full compliance, application, or renewal inspection
                     on the FFL.50 On average, the FFLs that had never been
                                TP   PT




                     inspected had been selling firearms for 8.6 years.

       •             In 22 cases, the ATF had conducted an application inspection,
                     but had conducted no further inspections of the FFL. On
                     average, these FFLs had been selling firearms for 5.1 years.

       •             In 29 cases, the ATF had conducted at least one compliance
                     inspection on the FFL. Among those 29 cases were 9 cases in
                     which the ATF conducted additional follow-up compliance
                     inspections, including 2 in which the ATF later conducted a
                     third compliance inspection. These compliance inspections
                     occurred, on average, about once every 9.2 years. On average,
                     the FFLs had been selling firearms for 14.8 years.

       •             In 26 cases, the ATF had never conducted a compliance
                     inspection at the FFL, but had conducted at least one renewal

       48 For the purposes of our review, we relied upon FY 2002 data for ATF
       TP       PT




Inspector workload activities.

       49
       TPDue to limitations in the NLC database of FFL information, we could only
                PT




determine dates for when the ATF issued a federal firearms license for 87 of the FFLs in
our sample. The “average time in business” was calculated using these FFLs’ records.

       50
       TP  At some of these FFLs, limited purpose inspections had been conducted, but
                PT




no full compliance, application, or renewal inspections were conducted.

U.S. Department of Justice                                                          20
Office of the Inspector General
Evaluation and Inspections Division
           inspection. These renewal inspections occurred, on average,
           about once every 6.9 years. On average, these FFLs had been
           selling firearms for 15.1 years.



                     Figure 4: FFL Inspection File Review Analysis



                                               23%
           26%

                                                           No record of inspection



                                                           Application inspection
                                                           only


                                                           At least one compliance
                                                           inspection


                                                           At least one renewal
                                                   22%     inspection, but no
                                                           compliance inspection


                29%



       Source: ATF inspection history files


       Large-scale retailers sell a higher volume of guns than small
dealers. Despite the potential for large numbers of improper sales, we
found that large-scale retailers also are not inspected on a routine basis.
Our sample showed that the ATF conducted compliance inspections on
large-scale national and regional chain retailers such as Wal-Mart,
Sports Authority, or Big 5 (a sporting goods chain with 293 stores
throughout 10 western states) with about the same infrequency as small
dealers. The five Area Supervisors we interviewed told us that they avoid
selecting large FFLs for compliance inspections because the large volume
of records makes the inspections more difficult and time-consuming.




U.S. Department of Justice                                                 21
Office of the Inspector General
Evaluation and Inspections Division
The nine large-scale retailers in our sample were inspected about once
every 9.9 years, versus once every 9.2 years for the overall sample.51        TP   PT




      Further, we found that the 9 large-scale retailers included in our
sample were only slightly more likely to have been subjected to a
compliance inspection than the average FFL, with 33 percent (3 of 9)
having received at least one compliance inspection, versus 29 percent of
FFLs overall.52 Of the nine large-scale retailers we reviewed:
                    TP   PT




       •         One had not been inspected since receiving its license in 1985.

       •         Four had received only an application inspection.

       •         One had received a renewal inspection in 1995, the first since
                 receiving a firearms license in 1973, and had not been
                 inspected since 1995.

       •         Three had received at least one compliance inspection,
                 including:

                 o A sporting goods retailer that was last inspected in 1986.
                   According to the inspection report on the 1986 limited
                   purpose inspection the Inspector spent only four hours at
                   the store, a very short amount of time for an inspection.

                 o A retailer cited in 1977 for selling ammunition to a minor
                   and for having inventory discrepancies. In 1985, during the
                   FFL’s next inspection, the FFL was cited for selling a rifle to
                   a minor and for numerous Form 4473 violations. The FFL
                   had not been inspected since 1985.

                 o A retailer cited in 2000 for at least one unreported multiple
                   handgun sale and, on seven occasions, not certifying the
                   residency of aliens who purchased firearms. No follow-up
                   inspection had been done.



       51
       TP Other FFLs in our sample that received compliance inspections included gun
            PT




shops, pawnshops, gunsmiths, movie industry members, and small-scale FFLs
operating out of their homes.

       52
       TPWe concluded that more large-scale retailers had been inspected at least once
            PT




despite having less frequent inspections because they averaged a longer time in
business than other retailers in our sample.

U.S. Department of Justice                                                    22
Office of the Inspector General
Evaluation and Inspections Division
       Because the ATF does not conduct regular inspections of FFLs, the
ATF cannot effectively monitor the overall level of FFL compliance with
federal firearms laws and regulations. In December 2003, the ATF
initiated a program to conduct special Random Sample Compliance
Inspections to develop a risk model for the FFL inspection program.
Using data from those inspections, the ATF planned to “be able to project
the overall level of compliance by” gun dealers, pawnbrokers, and
collectors.53 While the project to estimate the overall level of compliance
with laws is needed to identify the challenges facing the ATF, it cannot
take the place of regular compliance inspections for deterring and
identifying noncompliance with gun laws.

The ATF Does Not Identify and Inspect All FFLs That Exhibited
Indicators of Potential Violations or Gun Trafficking

       The ATF has not identified all FFLs that exhibit characteristics of
violations or firearms trafficking in order to properly manage its range of
enforcement activities, as well as to inform the Attorney General,
Congress, and the public of the scope of the potential trafficking problem
at FFLs. Gun dealers are selected for compliance inspections either by
ATF Headquarters (under the Focused Inspection, Demand Letter, or
other programs) or by the 23 ATF Field Divisions. Under the Focused
Inspection Program, the ATF Firearms Programs Division selects FFLs for
mandatory compliance inspections by the Field Divisions. The Chief of
the Firearms Program Division told us that the ATF and the NTC
generally applied two principal criteria to select the FFLs: data on sales
practices by FFLs, such as volume and multiple handgun sales; and
time-to-crime for guns traced to that FFL.54 In FY 2002, ATF
Headquarters assigned Focused Inspections on about 350 FFLs, or about
16 per Field Division.

      Although the ATF’s criteria for selecting FFLs for Focused
Inspections targeted those FFLs that most significantly exhibited the
established indicators of trafficking (i.e., multiple sales and short time-
to-crime), the ATF did not identify or inspect all FFLs that exhibited

       53 Memorandum, Assistant Director for Firearms, Explosives, and Arson, to All

Special Agents In Charge, December 8, 2003. ATF officials told us that the
memorandum was distributed to the Field Divisions in January 2004.

       54  In October 2003, the ATF established new criteria for selecting FFLs for
future Focused Inspections: 1) FFLs sent a Demand Letter in FY 2002 or FY 2003; 2)
FFLs in cities with a high crime rate and multiple sales meeting certain criteria during
calendar years 2001 and 2002; 3) FFLs in high-crime cities that have not been
inspected in the previous 10 years; and 4) FFLs that have had a firearm traced to them
within the first year of the issuance of their license.

U.S. Department of Justice                                                      23
Office of the Inspector General
Evaluation and Inspections Division
indicators of trafficking. Instead, the NTC Director told us that the ATF
established a numerical goal for Focused Inspections based on the
resources available, and then changed the criteria to limit the number of
FFLs identified to that number (350 in FY 2002). Therefore, the number
of FFLs that exhibited indicators of trafficking and therefore should have
been inspected was more than the 350 identified.

Gun Tracing Has Significant Shortcomings That Limit Its Use For
Identifying FFLs That Should Be Inspected

       Our review found that the crime gun trace data relied upon by the
ATF to target inspections has significant limitations that reduce its
effectiveness for identifying FFLs likely to be involved in firearms
trafficking. Along with other information, firearms trace data can assist
the ATF in identifying those FFLs that may be violating federal firearms
laws and should be inspected. Although a trace does not in itself prove
that an FFL is involved in gun trafficking, a high number of short time-
to-crime sales and other patterns can indicate that an inspection is
warranted. In FYs 2001, 2002, and 2003, LEAs submitted an average of
a quarter million trace requests to the ATF each year. Table 1 shows the
trace requests submitted by the 60 YCGII cities and other LEAs.



               Table 1: Trace Requests Submitted to the ATF

      Fiscal     Total Firearms         Non-YCGII
       Year      Trace Requests       trace requests     YCGII trace requests
      2001          232,272           133,962 (58%)         98,310 (42%)
      2002          240,651           144,300 (60%)         96,351 (40%)
      2003          280,947            (not available)       (not available)
    Source: National Tracing Center


       As an indicator of whether the ATF overall used that data to direct
its resources at FFLs that should be inspected, we examined whether the
Field Divisions that had more gun traces in FY 2001 conducted more
compliance inspections in FY 2002. The ATF was unable to provide data
on traces to FFLs in each Field Division, but was able to provide us with
the number of traces submitted by LEAs in each Field Division. ATF data
shows that the preponderance of crime guns are recovered in the same
geographic area in which they were originally sold by an FFL. Therefore,
although we recognized limitations in the data, we expected that, if trace
data were being used to target inspections at those FFLs that exhibited
indicators of firearms trafficking, then higher numbers of trace requests
would lead to more inspections in a Field Division. However, we found

U.S. Department of Justice                                                     24
Office of the Inspector General
Evaluation and Inspections Division
little correlation between the number of traces and the number of
compliance inspections conducted the next year (Figure 5). This result
indicated that the ATF overall did not focus its resources to conduct
more inspections in those Field Divisions that had more crime guns
traced.


                          Figure 5: Comparison of Trace Requests to Inspections

      FY01 Trace                                                                                                                                                                                                                    FY02 Compliance
       Requests                                                                                                                                                                                                                       Inspections
    25000                                                                                                                                                                                                                                                            600


                                                                                                                                                                                                                                                                     500
    20000


                                                                                                                                                                                                                                                                     400
    15000

                                                                                                                                                                                                                                                                     300

    10000
                                                                                                                                                                                                                                                                     200


      5000
                                                                                                                                                                                                                                                                     100


         0                                                                                                                                                                                                                                                           -


                                                                                                                                                                                                                                               Nashville
             Louisville




                                                              New Orleans


                                                                                      Philadelphia


                                                                                                                 Charlotte




                                                                                                                                                                                                                                                           Chicago
                                                                                                                                                                                                     Columbus
                                                                                                                                                                                                                Houston


                                                                                                                                                                                                                                    New York
                                                                                                                                                                                                                          Detroit
                                                                                                                                                                     Dallas


                                                                                                                                                                                           Phoenix
                                                                                                     Baltimore




                                                                                                                                                                              Washington
                                                     Boston


                                                                            Seattle




                                                                                                                             Atlanta
                                                                                                                                       Los Angeles
                                                                                                                                                     San Francisco
                                          St. Paul
                           Kansas City




                                         FY01 Trace Requests                                                                                                    FY02 Compliance Inspections
       Note: The ATF could not dissagregate trace data for the Miami and Tampa Field Divisions.

 Source: National Tracing Center and Firearms Programs Division Data


       Although the ATF does not appear to be systematically conducting
more inspections in Field Divisions with more gun traces, the Field
Divisions may still use tracing data to select FFLs for those inspections
that are not directed by Headquarters. For example, Area Supervisors,
who determine FFL inspection assignments for their Area Offices, told us
that they use trace data such as time-to-crime of two years or less,
firearms with obliterated serial numbers, and multiple sales of handguns
to target inspections.

      There are limitations to more extensive use of trace data to target
inspections. In response to our survey and in interviews, ATF


U.S. Department of Justice                                                                                                                                                                                                                                                 25
Office of the Inspector General
Evaluation and Inspections Division
Inspectors, Area Supervisors, and NTC management explained that
tracing data is not fully useful for identifying potential problem FFLs.
There are three limitations that reduce the utility of tracing data for
targeting inspections. First, all LEAs do not trace all crime guns.
Consequently, trace data are skewed toward dealers located in and
around cities that participate in the YCGII program. As shown in Table 1
on page 24, about 40 percent of trace requests originate from the 60
YCGII cities, even though only about 15.5 percent of the U.S. population
lives in those cities.55 Therefore, FFLs located in areas where the LEAs
do not comprehensively trace crime guns are less likely to have guns
traced to them. A Deputy Assistant Director told us that, because of this
data limitation, at least three firearms “trafficking corridors” (i.e., routes
along which guns from an area with lax firearms laws are illegally
transported to an area with stringent firearms laws) are not picked up by
tracing data.

       Second, because trace data are not controlled for dealer sales
volume, an elevated number of traces is not always evidence that an FFL
is involved in firearms trafficking. Large-scale FFLs may have more guns
traced to them simply because they sell more guns than smaller FFLs.
As described to us by ATF Inspectors, a hypothetical FFL selling 40 guns
a year of which 8 are subsequently traced as crime guns would be a
much greater concern than a dealer selling 2,000 guns of which 15 are
subsequently traced. However, the ATF’s current database does not
include sales volume, and therefore the ATF cannot easily use trace data
to identify FFLs that have a high number of traces for their sales volume.
Consequently, the smaller dealer in the example above would be less
likely to be identified for inspection through tracing, despite the fact that
20 percent of the guns it sold became crime guns.

      Third, tracing follows a particular firearm’s trail from the
manufacturer, through the FFL, to the initial purchaser of the firearm.
As an Area Supervisor stated, a firearm may have been purchased later
by another FFL (such as a pawnshop), “possibly two or three times,
before it is actually involved in a crime and traced. The subsequent FFLs
do not appear in the trace report.”

      Although correcting all of the above limitations would be difficult,
more LEAs could be induced to comprehensively trace firearms if such
tracing were made a condition of relevant Department of Justice grants.
The ATF also could collect sales volume information (but not any


       55 “Population Estimates for Cities and Towns,” U.S. Census Bureau.
Population data was current as of July 1, 2002.

U.S. Department of Justice                                                   26
Office of the Inspector General
Evaluation and Inspections Division
personal information) during FFL inspections and enter that data into
the NTC database.

        A recent study indicated that some gun dealers are willing to sell
guns to prohibited persons. The need to better identify the potential
universe of dealers involved in gun trafficking and focus inspections on
those dealers was highlighted in a 2003 study by the University of
California, Los Angeles, School of Public Health. That independent study
found that up to 20 percent of gun dealers exhibited a willingness to help
likely prohibited persons obtain guns through straw purchases.56 The
study used an independent telephone survey to test whether randomly
selected FFLs were willing to sell a handgun, regardless of the intended
recipient of the firearm. A total of 120 FFLs were surveyed. Of those,
87.5 percent said that they would sell a handgun to someone when the
caller stated that the handgun was for his or herself, and 72.5 percent
said that they would sell a handgun to someone when the caller stated
that the handgun was intended to be a gift, both situations in which the
sale would be legal. However, 52.5 percent also said that they would sell
a handgun to the caller when told the gun was for a boyfriend or
girlfriend “who needs it,” a situation in which the FFL should have
questioned the legality of the sale.

       To address concerns that the FFLs may have been “playing along”
with the interviewers, 20 additional calls were made after the initial
study was completed. In these calls, the interviewer opened with “My
girl/boyfriend needs me to buy her/him a handgun because s/he isn’t
allowed to.” In 16 of the 20 calls, the dealers correctly informed the
callers that they would not sell a firearm to them. However, four agreed
to sell a handgun, even though they appeared to recognize that the sale
would be illegal. Some even offered advice on avoiding the restrictions,
stating for example:

       1. “What you do with it is your business. Legally you’d be
          responsible for it, you’re more than welcome to buy one. You
          can’t transfer it to him—I assume he’s been turned down”;

       2. “As long as you have no record, you can come down here and
          pick one up and put it in your name”;



       56    Although federal law allows individuals to purchase a firearm as a legitimate
gift, it is unlawful to knowingly transfer a firearm to an individual known to be
prohibited from possessing a gun. It also is unlawful for an FFL to knowingly
participate in such a straw purchase.

U.S. Department of Justice                                                        27
Office of the Inspector General
Evaluation and Inspections Division
       3. “You can do whatever you want after you walk out the door”;
          and

       4. Clerk: “She can’t come in, pick one out and you buy it. That’s
          against the law.” Interviewer: “I’d come, just me.” Clerk: “I’d
          have no problem with that.” 57

       In December 2003 the ATF’s Firearms Programs Division randomly
selected 760 FFLs for compliance inspections to identify FFL business
characteristics that could be used to more effectively target FFLs for
compliance inspections. By analyzing FFL business characteristics, such
as number of employees and types of firearms sold, the ATF plans on
developing a “risk model” based on the types and levels of firearms
violations found at the selected FFLs.58 According to the ATF, the “risk
model” will identify those FFLs most likely to be violating federal firearms
laws. According to the Chief of the Firearms Programs Division, the ATF
may, in the future, modify the FFL Renewal Application form to capture
those factors identified by the risk model.

       In sum, we disagree with the ATF’s practice of limiting its
identification of potential traffickers to the number that can be addressed
within available resources. Unless the ATF identifies the full universe of
FFLs exhibiting indications of firearms trafficking, it is unable to properly
manage its range of enforcement activities, or inform the Attorney
General, Congress, and the public of the scope of the potential trafficking
problem at FFLs.

ATF’s Field Divisions Implement FFL Inspections Inconsistently

      During our review of FFL inspection files, we found that the
process and amount of time spent conducting application and
compliance inspections varied greatly among the ATF Field Divisions.
For the 8,123 application inspections and 4,581 compliance inspections
conducted by the ATF in FY 2002, the application inspections took an
average of 11.8 hours and the compliance inspections took an average of
35.3 hours each. However, we found considerable variation in the
average inspection time among the ATF’s 23 Field Divisions. Time and
workload data from the ATF’s N-Spect database showed that the average
time that Field Divisions spent conducting each application inspection

       57Buying a Handgun for Someone Else, Injury Prevention 2003; 9:147-150, with
permission from the BMJ Publishing Group.

       58 We note that the Random Sample Compliance Inspection worksheets do not
include information related to the FFLs’ firearms tracing histories.

U.S. Department of Justice                                                 28
Office of the Inspector General
Evaluation and Inspections Division
ranged from 6.2 hours in the Kansas City Field Division to 25.5 hours in
the Miami Field Division. For compliance inspections, the average
inspection length ranged from 24.5 hours per inspection in the Nashville
Field Division to 90.0 hours in the Washington Field Division. According
to ATF Headquarters officials, the variance was due to Inspectors’
discretion in determining the appropriate amount of time to spend
examining FFL records. ATF officials also told us that inspection times
were affected by the number of inexperienced Inspectors in the Field
Divisions.

       Our review of the ATF’s Inspector Handbook confirmed that
Inspectors have the latitude to abbreviate significant portions of a
compliance inspection.59 According to the Inspector Handbook,
                                   TP   PT




Inspectors must complete 11 worksheets totaling 23 pages during an
inspection. Although the Work Program and worksheets provide
extensive direction for data collection, Inspectors are allowed to reduce
specific inspection steps. For example:

       •             The worksheets give ATF Inspectors the discretion to either
                     conduct a full inventory (i.e., a physical count) of the firearms in
                                               U   U




                     stock during a compliance inspection, or to sample the FFL’s
                     inventory to determine whether the number of “open” A&D Book
                     entries matches the number of firearms at the FFL’s place of
                     business. The worksheet provides no guidance to ensure that a
                     valid sample is taken, or how many discrepancies can be found
                     before a full inventory is required.60
                                                        TP   PT




            •        The ATF inspection worksheet for examining Form 4473 sales
                     records gives the Inspector the option to conduct a sample
                     review and contains a space for the Inspector to explain the
                     method used to determine how the sample was taken. In our
                     discussions with Inspectors, we found that they did not use a
                     statistical method for determining the number of Forms 4473 to
                     examine. Instead, most Inspectors told us that they examined
                     either a pre-determined number of Forms, or examined Forms

       TP
         59 The ATF also issues supplemental instructions annually to guide the conduct
                PT




of the limited number of Focused Inspections directed by Headquarters. In FY 2003,
Inspectors were to count all guns in stock and compare that number to the total
number of entries in the FFL’s A&D book for which the “disposition” column was blank.
If those numbers matched, the Inspector was to conduct a limited inventory verification.
If discrepancies were found, a full inventory verification was required.

       60
       TP ATF Inspection Worksheet 2 – Inventory. The worksheet asks, “Full count of
                PT




inventory taken?” and provides a space for the Inspector to answer Yes or No. The
worksheet notes, “If no count was taken, state why in findings.”

U.S. Department of Justice                                                       29
Office of the Inspector General
Evaluation and Inspections Division
          from a specific time frame. For example, in the Miami Field
          Division, Inspectors said that they were required by their Area
          Supervisor to review six months of Forms 4473, while
          Inspectors at the Seattle Field Division said that they were told
          by their Area Supervisor to examine one year’s worth of records.

       Our discussions with Inspectors during our site visits also
confirmed that Inspectors vary in the depth of their reviews. For
example, all 18 Inspectors we interviewed said that they review Forms
4473 as part of the inspection process, but 14 said that they only
examine the forms to see if they were filled out properly – not for
indications that a purchaser may be part of a firearms trafficking ring or
acting as a straw purchaser for                Case Study: Gun Dealer Avoided
someone else (e.g., purchasing          Restrictions on Sales To Prohibited Persons
patterns, similarities in
purchasers’ addresses). These 14           In June 2002, an ATF inspection was
Inspectors said that they do not       conducted at an FFL in the Seattle Field
                                       Division based on information from Special
review Forms 4473 for firearms         Agents at another Field Division. The
trafficking indicators because it      inspection found that the FFL had been
was not a required part of the         illegally conducting business at Nevada gun
ATF’s inspection process.              shows in violation of the Gun Control Act. The
                                         FFL admitted to inspectors that he had illegally
                                         transferred 52 firearms at the gun shows, and
       Although our interviews and       that he altered his A&D Book to hide the sales.
review of the ATF’s Inspector            Furthermore, the FFL admitted to having
Handbook confirmed that                  worked with two out-of-state gun show dealers
Inspectors and their supervisors         to allow for firearms sales to be conducted
have the discretion to vary the          without NICS checks. The FFL told inspectors
                                         this was done “because [the FFL] needed the
extent of inspections, we also           money for...family.” As a result of the
analyzed ATF performance data to         inspection, the ATF revoked the FFL’s license.
identify any other factors that
could be causing the disparity           Source: ATF case files
between Field Divisions. Our
analysis of ATF data regarding application inspections found that the
average time spent conducting application inspections was clearly
correlated to the Field Divisions’ staffing levels and the number of FFLs
located in the Divisions. ATF data showed that Field Division staffing
ranged from a high of 35 Inspectors in the San Francisco Field Division
to a low of 9 Inspectors in the Baltimore Field Division. The number of
FFLs in each Field Division ranged from 8,194 FFLs in the Kansas City
Field Division to 1,172 FFLs in the Miami Field Division. However, the
ATF had not distributed its Inspector resources among the Field
Divisions to match the distribution of FFLs, resulting in significant
workload imbalances among the Field Divisions. As shown in Figure 6,



U.S. Department of Justice                                                 30
Office of the Inspector General
Evaluation and Inspections Division
the Field Division that had higher numbers of FFLs to oversee with each
Inspector spent less time conducting each application inspection.


                    Figure 6: Comparison of Length of Application
                          Inspections to FFLs per Inspector
                                                                                                                                                                                                                                                           Average Direct
                                                                                                                                                                                                                                                             Hours Per
    FFLs per Inspector                                                                                                                                                                                                                                      Application
                                                                                                                                                                                                                                                             Inspection

        500                                                                                                                                                                                                                                                                             30.0
        450
                                                                                                                                                                                                                                                                                        25.0
        400
        350
                                                                                                                                                                                                                                                                                        20.0
        300
        250                                                                                                                                                                                                                                                                             15.0
        200
                                                                                                                                                                                                                                                                                        10.0
        150
        100
                                                                                                                                                                                                                                                                                        5.0
             50
         -                                                                                                                                                                                                                                                                              -




                                                                                                                                                                                                                                                                          Kansas City
                  Miami




                                                                                                                                                                                                  Detroit




                                                                                                                                                                                                                                                               St. Paul
                                                                                                                                                                                                            Charlotte


                                                                                                                                                                                                                                  Seattle
                          San Francisco




                                                                                                                                                                                                                                            Boston
                                                        New York


                                                                                Atlanta




                                                                                                                                                                        Baltimore
                                                                   Louisville




                                                                                                                         Dallas


                                                                                                                                             Nashville




                                                                                                                                                                                                                        Houston
                                                                                                                                                                                    New Orleans
                                          Los Angeles




                                                                                          Tampa
                                                                                                  Chicago
                                                                                                            Washington


                                                                                                                                  Columbus




                                                                                                                                                                                                                                                     Phoenix
                                                                                                                                                         Philadelphia




                     FFLs per Inspector                                                                                  Average Direct Hours Per Application Inspection

 Source: ATF workload and performance data


       We also examined the ATF’s explanation that compliance
inspection times were affected by the number of inexperienced Inspectors
assigned to each Field Division.61 As explained by ATF officials,
inexperienced Inspectors receive on-the-job training from more
experienced Inspectors. During that time, they observe or are observed
by the experienced Inspector. Since inexperienced Inspectors are not
fully productive, the average inspection time for Field Divisions with
more inexperienced Inspectors could be higher. However, as shown in
Figure 7, we found there was no correlation between the average time
that a Field Division took to conduct compliance inspections and the
percentage of inexperienced Inspectors among the Field Division’s staff.



       61   Trainee Inspectors start at grade 5 on the General Schedule (GS). During
their first two years, while at the GS-5 and GS-7 levels, trainees accompany senior
Inspectors to observe and assist.

U.S. Department of Justice                                                                                                                                                                                                                                                                  31
Office of the Inspector General
Evaluation and Inspections Division
                   Figure 7: Impact of Inexperienced Inspectors on
                        Average Compliance Inspection Hours
 Average Hours per                                                                                                                                                                                                                                           Percentage of
    Compliance                                                                                                                                                                                                                                               Inexperienced
    Inspection                                                                                                                                                                                                                                                 Inspectors

       100                                                                                                                                                                                                                                                                           35%
           90
                                                                                                                                                                                                                                                                                     30%
           80
           70                                                                                                                                                                                                                                                                        25%

           60
                                                                                                                                                                                                                                                                                     20%
           50
                                                                                                                                                                                                                                                                                     15%
           40
           30                                                                                                                                                                                                                                                                        10%
           20
                                                                                                                                                                                                                                                                                     5%
           10
       -                                                                                                                                                                                                                                                                             0%




                                                                                                                                                                                                                Kansas City
                                                                                                                                                                               Detroit




                                                                                                                                                                                                                                           Miami
                                                                                 Seattle




                                                                                                                                                                                                    Charlotte




                                                                                                                                                                                                                                                   St.Paul
                                      Baltimore


                                                                 San Francisco




                                                                                                                                                   Boston
                                                                                           Dallas




                                                                                                                                                                    New York




                                                                                                                                                                                                                              Louisville
                                                                                                                           Houston




                                                                                                                                                                                                                                                             New Orleans
                                                                                                                                     Los Angeles
                            Chicago




                                                                                                              Washington




                                                                                                                                                            Tampa



                                                                                                                                                                                         Columbus




                                                                                                                                                                                                                                                                           Phoenix
                                                  Philadelphia
                Nashville




                                                                                                    Atlanta




       Average Hours Per Compliance Inspection                                                                                                                        Percentage of Inexperienced Inspectors



   Source: ATF workload and performance data

       We also examined several performance indicators to see if the
differing inspection times were related to outcomes, such as violations
found and criminal referrals. As shown in Figure 8, we found that Field
Divisions with longer average compliance inspection times found more
instances of violations on each inspection. However, it was unclear
whether the longer inspection times resulted from the need to document
more violations, or if the greater number of violation instances found
resulted from longer inspections.




U.S. Department of Justice                                                                                                                                                                                                                                                                 32
Office of the Inspector General
Evaluation and Inspections Division
                                  Figure 8: Comparison of Average Hours and Average Violation
                                              Instances for Compliance Inspections

                            Average Hours Per Compliance Inspection
                            Average Violation Instances Per Compliance Inspection

  100

   90

   80

   70

   60

   50

   40

   30

   20

   10

    0
                                                                                                                           Kansas City
                                                                                                                 Detroit




                                                                                                                                                                                                                                                        Miami
                                                                                                                                         St.Paul




                                                                                                                                                                            Charlotte

                                                                                                                                                                                        Boston



                                                                                                                                                                                                            Seattle
                                            New York




                                                                           San Francisco




                                                                                                                                                   Louisville

                                                                                                                                                                Baltimore




                                                                                                                                                                                                                      Dallas
                                  Houston
                    New Orleans




                                                                                                   Los Angeles
                                                                 Chicago
                                                       Phoenix




                                                                                           Tampa




                                                                                                                                                                                                 Columbus




                                                                                                                                                                                                                                                                Washington
                                                                                                                                                                                                                                         Philadelphia
        Nashville




                                                                                                                                                                                                                               Atlanta
   Source: ATF workload and performance data


      To examine whether the variation in average inspection times was
due to some Field Divisions taking more time to document
noncompliance by FFLs in order to pursue adverse actions, we analyzed
whether Field Divisions that took longer to conduct compliance
inspections in FY 2002 also took more adverse actions. We found that
Field Divisions that had longer average inspection times took slightly
fewer adverse actions than Field Divisions that took less time to conduct
inspections. Figure 9 shows the average inspection time and number of
adverse actions taken for each ATF Field Division.




U.S. Department of Justice                                                                                                                                                                                                                                 33
Office of the Inspector General
Evaluation and Inspections Division
               Figure 9: Comparison of Average Compliance Inspection
                          Time to Adverse Actions, FY 2002
    Adverse
 Actions/Hours
    100
     90
     80
     70
     60
     50
     40
     30
     20
     10
      0




                                                                                                                                                                                                                Seattle



                                                                                                                                                                                                                                   Atlanta




                                                                                                                                                                                                                                                                    Washington
                                                                                                                                                                    Baltimore
                                                                                                                    Detroit




                                                                                                                                                                                                                                                            Miami
                                                                                                                                            St. Paul




                                                                                                                                                                                Charlotte

                                                                                                                                                                                            Boston




                                                                                                                                                                                                                                             Philadelphia
                                                                                                                              Kansas City




                                                                                                                                                                                                     Columbus
                                                                                                                                                       Louisville
                                     Houston




                                                                                                                                                                                                                          Dallas
                                                                                                      Los Angeles
           Nashville




                                                                                              Tampa
                                                                    Chicago

                                                                              San Francisco
                       New Orleans




                                                          Phoenix
                                               New York




                                                               Warning Letter (FY02)
                                                               Warning Conference (FY02)
                                                               Revocation (FY02)
                                                               Average Direct Hours per Compliance Inspection

 Source: ATF workload and performance data


      Our analysis of the ATF Field Divisions’ inspection efforts and
outcomes also uncovered significant variances in inspection productivity.
For example, our analysis of the ATF’s FY 2002 workload and
performance data found such variances as:

       •         The number of inspections conducted per Inspector each year
                 ranged from 12.7 (Miami Field Division) to 46.5 (Kansas City
                 Field Division).

       •         The percentage of the inspections conducted by each Field
                 Division that identified violations varied from 4.5 percent
                 (Kansas City Field Division) to 41.5 percent (Dallas Field
                 Division).

       •         On inspections where violations were discovered, the average
                 number of instances of violations found on each inspection
                 ranged from 15.9 (Nashville Field Division) to 178.2 (Chicago
                 Field Division).


U.S. Department of Justice                                                                                                                                                                                                                                  34
Office of the Inspector General
Evaluation and Inspections Division
       •   The average time that Field Divisions took to find each violation
           ranged from 47 minutes per violation (Dallas Field Division) to
           over 7 hours per violation (Los Angeles Field Division).

Inspection hours, violations, and adverse actions taken in FY 2002 are
summarized by Field Division in Table 2, on the next page.

       The variability in FFL inspections between ATF Field Divisions
indicates that inspections are not being conducted according to
standardized inspection procedures. Moreover, the excessive variability
allowed inefficient and ineffective operations to persist. The ATF’s failure
to use the limited available Inspector resources efficiently also reduced
its capability to carry out regular inspections of all FFLs, which, in turn,
reduced the effectiveness of the ATF’s FFL inspection program for
ensuring FFLs comply with federal firearms laws. Further, the lack of
standardization resulted in inconsistent treatment of FFLs in Field
Divisions.

       We believe that a standardized inspection approach is needed to
ensure that FFLs in all Field Divisions are inspected using consistent
inspection procedures and sampling criteria. Adopting a standardized
inspection process designed to use the minimum review necessary to
effectively gauge FFLs adherence to gun laws also would increase the
efficiency of the FFL inspection program, and better enable the ATF to
provide uniform, regular inspection coverage of the FFL population. An
increase in inspection efficiency also would reduce the overall time that
Inspectors spend at the FFLs’ place of business.




U.S. Department of Justice                                           35
Office of the Inspector General
Evaluation and Inspections Division
                      Table 2 - Inspector Hours, Productivity, Violation Instances Found, and Adverse Actions Taken, FY 2002




                                                                                                                                                                  Inspections per Inspector
                                                                                 Total Inspector Hours (N-




                                                                                                                                                                                                                                                                                                                                               Inspection Hours to Find
                                                                                                                                                                                                                                                                  % of Inspections Finding




                                                                                                                                                                                                                                                                                                                                               Each Violation Instance
                                                                                                                                                                                                                                                                                                                     Violation Instances per




                                                                                                                                                                                                                                                                                                                                                                                            Warning Conferences
                                                                                                                                                                                                                       Compliance Inspection
                                                                                                                                                                                              Application Inspection
                                                                                                                                         Compliance Inspections




                                                                                                                                                                                                                                                                                              Violations Instances
                                                                                                              Application Inspections
                                      FFLs per Inspector


                                                            FFLs Within Field




                                                                                                                                                                                              Average Hours per




                                                                                                                                                                                                                       Average Hours per




                                                                                                                                                                                                                                               Inspections with




                                                                                                                                                                                                                                                                                                                                                                          Warning Letters
     Field Division




                                                                                                                                                                                                                                                                                                                                                                                                                  Revocations
                                                                                 Spect Data)




                                                                                                                                                                                                                                                                                                                     Inspection
                         Inspectors




                                                                                                                                                                                                                                                                  Violations
                                                                                                                                                                                                                                               Violations
                                                            Division




                                                                                                                                                                                                                                                                                              Found
   Atlanta               20           145                   2,892                8,925                       300                         86                       19                               9.5                     70.6                   57               15%                        7549                   132.4                       1.18                      8                 5                      1
  Baltimore               9           203                   1,823                6,306                       131                        107                       26                              15.7                     39.7                   52               22%                        6665                   128.2                       0.95                      3                 4                      0
   Boston                17           352                   5,977                7,998                       271                        106                       22                              13.2                     41.8                   34                9%                        2345                    69.0                       3.41                      2                 0                      0
  Charlotte              18           239                   4,295               13,326                       417                        208                       35                              11.5                     40.9                  114               18%                        8901                   78.1                        1.50                     27                 6                      1
   Chicago               23           157                   3,601                9,429                       315                        151                       20                              16.0                     29.0                   34                7%                        6058                   178.2                       1.56                      8                 7                      4
  Columbus               34           191                   6,496               17,212                       472                        268                       22                              11.3                     44.4                  140               19%                        9517                   68.0                        1.81                     14                 0                      3
    Dallas               30           186                   5,581               15,951                       249                        255                       17                              14.7                     48.2                  209               41%                       20239                   96.8                        0.79                     40                21                      5
    Detroit              18           235                   4,237               11,410                       362                        228                       33                              11.0                     32.5                  109               18%                        9051                   83.0                        1.26                      8                 4                      0
   Houston               16           251                   4,019                7,013                       277                        169                       28                               9.5                     25.9                   52               12%                        2457                    47.3                       2.85                      6                 2                      0
 Kansas City             18           455                   8,194                7,889                       737                        100                       47                               6.2                     32.9                   38                5%                        3650                    96.1                       2.16                     10                 5                      0
 Los Angeles             24           116                   2,790                7,040                       176                        136                       13                              15.6                     31.6                   28                9%                         995                    35.5                       7.07                      2                 1                      0
  Louisville             25           131                   3,287               17,629                       373                        320                       28                              13.9                     38.9                  131               19%                        8634                   65.9                        2.04                     34                11                      0
    Miami                15            78                   1,172                6,679                       157                         33                       13                              25.5                     81.0                   11                6%                        1315                   119.5                       5.08                      0                 1                      1
  Nashville              23           192                   4,408               16,881                       275                        565                       37                              11.2                     24.4                  222               26%                        3537                   15.9                        4.77                     62                15                      7
 New Orleans             21           225                   4,724               15,912                       483                        385                       41                              12.4                     25.8                  170               20%                       11017                   64.8                        1.44                     20                14                      3
  New York               33           116                   3,838               15,660                       359                        375                       22                              14.8                     27.6                   84               11%                        4477                   53.3                        3.50                      2                 1                      1
 Philadelphia            27           193                   5,207               11,013                       434                         62                       18                              14.1                     79.0                   23                5%                        2082                    90.5                       5.29                      2                 3                      1
   Phoenix               15           423                   6,341                7,449                       373                        144                       34                               9.3                     27.7                   46                9%                        1384                    30.1                       5.38                      2                 0                      0
San Francisco            35           109                   3,815               17,099                       359                        387                       21                              14.7                     30.5                  125               17%                        8005                   64.0                        2.14                     16                 0                      0
    Seattle              21           309                   6,498                7,577                       538                         85                       30                               7.0                     44.6                   31                5%                        4261                   137.5                       1.78                      4                 2                      1
   St.Paul               17           453                   7,709               10,780                       451                        172                       37                              10.1                     36.2                   97               16%                        4565                   47.1                        2.36                      9                 4                      2
    Tampa                22           150                   3,297               10,718                       399                        185                       27                              12.6                     30.7                   90               15%                        5055                   56.2                        2.12                      5                 0                      0
 Washington              17           176                   2,995                7,828                       215                         54                       16                              13.8                     90.0                   37               14%                        3073                    83.1                       2.55                      4                 3                      0
                        498                                103,196              257,723                      8,123                      4,581                                                     11.8                     35.3                1,934                                         134,832                   69.7                         1.9                   288               109                   30


Note: FFL and Inspector data are as of 08/01/03, other data are totals for FY 2002.




U.S. Department of Justice                                                                                                                                                                                                                                                                                                                                                                  36
Office of the Inspector General
Evaluation and Inspections Division
Suspected Criminal Violations Are Not Always Referred for
Investigation

       In addition to documenting regulatory violations, the FFL
inspection program also identifies indications of potential criminal
activity. Paradoxically, we found that Field Divisions that took longer to
conduct inspections made slightly fewer referrals of suspected criminal
activity (Figure 10). To analyze this result, we examined the total
number of inspections completed by each Field Division and found that
Field Divisions that took longer to conduct inspections completed fewer
inspections. Further, the data showed that the number of inspections
completed was correlated to the number of referrals made, and that
taking longer to conduct an inspection made it no more likely that
suspected criminal activity would be found and referred. Therefore, Field
Divisions that took longer to conduct inspections completed fewer
inspections and made fewer criminal referrals.


                          Figure 10: Comparison of Average Compliance Inspection
                                     Time to Criminal Referrals, FY 2002
       Average
    Hours/Referrals
  140

  120

  100

   80

   60

   40

   20

    0
                                                                                                                           Kansas City
                                                                                                                 Detroit



                                                                                                                                         St. Paul




                                                                                                                                                                                                                                                         Miami
                                                                                                                                                                             Charlotte

                                                                                                                                                                                         Boston



                                                                                                                                                                                                             Seattle



                                                                                                                                                                                                                                Atlanta
        Nashville




                                            New York




                                                                           San Francisco




                                                                                                                                                    Louisville

                                                                                                                                                                 Baltimore




                                                                                                                                                                                                                       Dallas
                                  Houston
                    New Orleans




                                                                                                   Los Angeles
                                                                 Chicago
                                                       Phoenix




                                                                                           Tampa




                                                                                                                                                                                                  Columbus




                                                                                                                                                                                                                                                                 Washington
                                                                                                                                                                                                                                          Philadelphia




                       Average Direct Hours per Compliance Inspection                                                                                                                             Criminal Referrals FY02



 Source: ATF Field Management Staff and ATF Firearms Programs Division



U.S. Department of Justice
Office of the Inspector General                                                                                                                                                                                                                           37
Evaluation and Inspections Division
       In addition, we found evidence that the coordination between ATF
Inspectors and ATF Special Agents could be improved. During our
review, we determined that even when FFL compliance inspections
identify significant violations of federal firearms laws by the FFLs or by
gun purchasers, the violations are often not reported to ATF Special
Agents for investigation. In our interviews, 12 of 18 Inspectors said that
they rarely refer information gathered during FFL inspections to Special
Agents because they did not believe that Special Agents would follow-up
on the information. The other six Inspectors told us that they made one
or two referrals per year to Special Agents.

       We identified several cases where indications of potential criminal
violations by FFLs, including gun trafficking, were identified but not
referred for investigation. These FFLs were subsequently investigated
after the illegal activity was discovered through other means. For
example, Inspectors conducted compliance inspections in March 2000
and October 2002 on an FFL located in the southern United States. The
2000 inspection was based, in part, on information from a state LEA.
During the 2002 compliance inspection, the Inspector found 40 firearms
not entered into the FFL’s A&D Book, several missing Forms 4473, and
sales to out-of-state residents – all strong indicators of gun trafficking.
Despite these findings, the FFL was not reported to Special Agents for
investigation. Then, subsequent to the inspections, information from a
confidential informant led to an investigation of this FFL. In December
2003, ATF Special Agents arrested the FFL for trafficking firearms.

       Further, the latest data available indicate that investigations are
not frequently initiated as a result of information provided by ATF
Inspectors. In FY 2002 and FY 2003 respectively, Inspectors made 951
and 823 referrals of potential criminal activity identified during
compliance inspections, an average of two per field-level Inspector.
According to the ATF’s Following the Gun report, published in 2000, of
the 1,530 firearms trafficking investigations conducted from July 1996 to
December 1998, just 43 - less than 3 percent - were initiated based on
information found during inspections (see Table 3 on next page). Our
survey of 45 Area Supervisors also found that few inspections result from
information referred to Inspectors by ATF Special Agents. Most Area
Supervisors (71.1 percent) said that they assigned five or fewer
inspections each year based on information from Special Agents.

       In December 2002, the ATF attempted to improve coordination
between Inspectors and Special Agents by creating 23 Special
Intelligence Inspector (SII) positions (one in each Field Division). The SIIs

U.S. Department of Justice
Office of the Inspector General                                         38
Evaluation and Inspections Division
are responsible for collecting and disseminating information gathered by
Inspectors and Special Agents between the two groups. As of November
2003, only 7 of the 23 authorized SII positions had been filled. Although
ATF Headquarters officials said that they plan to fill the positions, as of
March 2004 no deadline had been set.

                      Table 3: Reasons Cited for ATF Firearms Trafficking Investigations
                                             (July 1996 to December 1998)
                                                                                   Times       Percent of
                              Reason                                               Cited     Investigations*
     Referral from state, local, or federal agency                                  409          26.7%
     Confidential informant                                                         352          23.0%
     Crime gun tracing analysis                                                     296          19.3%
     Review of multiple sales forms                                                 205          13.4%
     FFL reported suspicious activity                                               139           9.1%
     Developed from another ATF investigation                                       127           8.3%
     FFL reports burglary/theft/robbery to ATF                                      115           7.5%
     ATF initiated investigation of suspicious activity
        (e.g., gun show task force, etc.)
                  U    U                                                             81             5.3%
→    ATF inspection of FFL                                                           43             2.8%
     Tip by citizen or anonymous source                                              37             2.4%
     Other                                                                            9             0.6%
            * Some of the 1,530 investigations cited more than one reason. Therefore, the “Percent of
            Investigations” exceeds 100 percent.

            Source: “Following the Gun,” ATF Publication (June 2000).


The ATF Acts Infrequently to Revoke Federal Firearms Licenses, and
the Process is Not Timely

       We found that the ATF rarely revokes federal firearms licenses. In
FY 2002, the 1,934 FFL inspections that found violations found an
average of almost 70 violations each (for a total of 134,832 violations). In
FY 2003, the 1,812 inspections that found violations found an average of
over 80 violations each (for a total of 149,396 violations). However, in
those years, the ATF issued Initial Notices of Revocation to only 30 and
54 FFLs, respectively.62 In addition to issuing a Notice of Revocation
                                   TP   PT




after a compliance inspection, the ATF also can effectively revoke an
FFL’s license by denying its request for license renewal. If an FFL’s
license expires during the course of revocation proceedings, the ATF’s


       62
       TP Notices of Revocation are not final. Of the 30 Notices in FY 2002, 25 FFLs
             PT




requested a hearing and 3 of those avoided revocation. (The FY 2003 data was
unavailable as of March 2004.)

U.S. Department of Justice
Office of the Inspector General                                                                         39
Evaluation and Inspections Division
action is formally categorized as a denial of a renewal request – not as a
revocation. In FY 2001, the ATF denied 28 requests for renewal.63

      During our review, ATF officials told us that, before May 2003, the
decision on whether to take adverse action (i.e., to revoke or deny
renewal of an FFL’s license) was left to the discretion of the Inspector,
Area Supervisor, and the DIO of each of the 23 Field Divisions. However,
in May 2003, subsequent to the initiation of our review, the ATF created
guidelines for the Field Divisions to follow when determining whether or
not to initiate an adverse action. When asked about the impact of these
new guidelines, ATF personnel in the four Field Divisions we visited told
us that they expected the guidelines to lead to an increase in the total
number of license revocations. We found that after the ATF issued the
adverse action guidelines, the number of FFL revocation hearings rose to
87 during FY 2003, and 59 Initial Notices of Revocation were issued and
renewals denied during the first quarter of FY 2004 alone. As of March
2004, most of these cases have not been finalized.

      The process for revoking or denying renewal of a federal firearms
license is not timely. The ATF provided specific case tracking data for 50
closed denials and revocations completed in FY 2001 and FY 2002.64
The processing of these 50 cases averaged 379 days from the date that
the Inspector recommended revocation or denial to the date that the case
was closed by the NLC. We determined that the length of denial and
revocation proceedings was due, in part, to the number of ATF officials
involved (see Figure 11 on page 42). At least five ATF officials participate
in these proceedings and each official reviews and approves the FFL
inspection case file seriatim. A formal ATF Notice of Revocation is issued
only after all of the officials have approved the action. Because the ATF
has limited suspension and fining authority, FFLs remain in business
during the adjudication of renewal denials and revocations.

      During our interviews, DIOs and some Area Supervisors stated
that most delays in the eight-step process occurred at the Division

        63 ATF officials also told us that FFLs sometimes withdraw their renewal

applications after being told that they may be denied. In FY 2001, 489 FFLs withdrew
their applications, but ATF did not track how many withdrew after being told they
would be denied versus withdrawals for other reasons.

       64 The ATF provided partial data for an additional 37 cases that we did not
include because the data were inadequate to enable us to determine the case processing
time. For example, for 33 cases the NLC did not have dates for when the initial Notice
of Revocation or Denial was sent to the FFL.

U.S. Department of Justice
Office of the Inspector General                                                 40
Evaluation and Inspections Division
Counsel level as the ATF waited for Division Counsel to draft a Notice of
Revocation for the FFL. We were unable to evaluate that perception from
the case tracking data that ATF could provide, because it did not include
the dates that the cases were processed by individual Field Division
offices. However, Assistant Chief Counsels and Division Counsels we
interviewed acknowledged delays in denial and revocation proceedings,
which they stated were due, in part, to their heavy caseloads. They also
stated that the quality of the initial compliance inspection report was a
factor, as not all cases they received adequately detailed that the FFL
“knowingly and willfully” violated federal firearms laws. This caused
further delay while the Division Counsels obtained clarifying information
from the Inspectors to ensure that the cases met legal standards.

       We also noted that in some cases delays occurred due to a lack of
legal staff within the Field Divisions. Although in 1999 the ATF
established a standard Field Division structure that would include two
staff attorneys, two of the Field Divisions we visited (Washington, D.C.
Field Division, Seattle Field Division) had no attorneys on staff. When
those Field Divisions needed legal assistance, they obtained it directly
from their regional Assistant Chief Counsel’s Office. For example, at the
Washington, D.C., Field Division, the DIO told us that he sent revocation
and denial cases to the Assistant Chief Counsel’s Office located in
Philadelphia.65 In one case, he said, it took four months to prepare an
Initial Notice of Revocation for his signature.




       65  The Assistant Chief Counsel’s Offices are located in San Francisco, Chicago,
Dallas, Atlanta, and New York/Philadelphia. The northeast regional office is currently
operating in Philadelphia due to the September 11, 2001, destruction of the ATF’s New
York offices, which were located at the World Trade Center.

U.S. Department of Justice
Office of the Inspector General                                                    41
Evaluation and Inspections Division
                      Figure 11: FFL Denial or Revocation Process

Compliance inspection reveals federal       Case Study: FFL Remains in Business More
firearms violations. Inspector             Than Two Years After Inspector Recommends
recommends revoking FFL’s license.                      Revoking License

                                               Based on an October 2001 compliance
                                           inspection, an ATF Inspector recommended
Area Supervisor approves                   revoking the license of a Georgia FFL operating
recommendation for revocation.             as a pawnbroker. During the inspection, the
                                           Inspector determined, among other findings, that
                                           the FFL:
DIO approves recommendation for
                                               • Sold 51 firearms without first obtaining
revocation.
                                                 proper identification from the purchasers;
                                               • Failed to complete a Report of Multiple Sale
                                                 on three occasions;
Division Counsel writes initial Notice         • Transferred at least one firearm to an out-
of Revocation for issuance to the FFL            of-state resident; and
by DIO. FFL has 15 days to appeal              • “Aided and abetted a prohibited person in
revocation and request a hearing.                obtaining a firearm” on four occasions by
                                                 transferring firearms to individuals other
                                                 than those who had originally pawned the
NLC officials assign Inspector to serve          firearms to him without performing the
as Hearing Officer.                              proper background check.

                                               The DIO issued an initial Notice of
                                           Revocation on May 6, 2002. The FFL appealed,
DIO schedules hearing to be attended       and a hearing was scheduled for November 2002.
by Hearing Officer, FFL, FFL’s counsel,    The NLC rescheduled the hearing for February
Inspector who conducted compliance         2003 at the FFL’s request. At that hearing, the
inspection, and Division Counsel.          FFL blamed the violations on human error as
                                           well as a computer program he used to maintain
                                           his records. The Hearing Officer’s completed
Hearing Officer issues report of           report, which included a recommendation to
findings and recommendations to DIO.       approve the FFL’s license, was issued to the DIO
                                           on March 31, 2003. The DIO issued a final
                                           Notice of Revocation on June 13, 2003. The FFL
Division Counsel writes final Notice of    waited until August 12, 2003 – the maximum
                                           allowable time – to appeal the DIO’s decision to
Revocation for issuance by DIO.
                                           U.S. District Court, where the case remained as
                                           of March 2004. Both sides have until June 1,
                                           2004 to file motions in the case, according to a
FFL has 60 days to appeal revocation       December 2003 order. Throughout these
to U.S. District Court.                    proceedings, the FFL has remained in business.

                                           [U.S. District Court, Middle District of Georgia;
                                           Case #03-CV-267.]
If an FFL files an appeal, Division
Counsel, in consultation with an
AUSA, submits Motion for Summary
Judgment on behalf of the ATF.

     U.S. Department of Justice
     Office of the Inspector General                                                   42
     Evaluation and Inspections Division
       We also found indications of limited communication between Field
Division staff and Division Counsels. For example, we were told that
Inspectors, Area Supervisors, and DIOs, usually do not seek advice from
Division Counsels on inspections of FFLs found to have violated federal
firearms laws until they request a Notice of Revocation or Denial.
Furthermore, Division Counsels told us that they are not routinely
notified when Warning Conferences are scheduled between FFLs and
DIOs. One Assistant Chief Counsel told us that he believes that the ATF
would benefit if Division Counsels had the opportunity to participate in
such proceedings in case, later on, a Notice of Revocation is issued to the
FFL.

New ATF Guidelines Begin to Address Inconsistent and Untimely
Adverse Actions

       In May 2003, the ATF took the initial steps toward standardizing
adverse actions by issuing guidelines that were intended to ensure that
Field Division personnel make more consistent and appropriate
determinations on adverse actions (such as warning letters, warning
conferences, and revocations) when FFLs are found to have violated
federal firearms laws. The guidelines established standards for
minimum adverse actions to be taken when violations are found.
Although Field Divisions can deviate from the policy if they determine
that the facts warrant another action, any deviation on inspections
violations for which the standard action is revocation must be reviewed
by Headquarters.

       The guidelines specify that FFLs that commit minor non-repetitive,
non-willful violations that do not affect the lawfulness of a gun transfer,
such as minor omissions or format errors, should receive warning letters
or reports of violations. FFLs committing more serious violations that do
not rise to the level of revocation, such as failing to record an acquisition
within a specified time frame or failing to report multiple sales, should
receive warning conferences. When FFLs commit the most serious
violations, such as having more than a threshold number of guns
missing from their inventory, the Field Division should begin the process
of revoking or denying the renewal of the FFL’s license.

      The guidelines also address some of the problems we noted with
the ATF’s past failure to follow-up and take action when violations were
found. For example, they address the frequent failure to routinely re-
inspect FFLs found to have committed serious violations by directing that
all FFLs that receive warning letters or warning conferences must be

U.S. Department of Justice
Office of the Inspector General                                         43
Evaluation and Inspections Division
scheduled for a follow-up “recall” inspection in the following year. The
guidelines also begin to address the lack of adverse actions taken against
repeat violators by directing that adverse actions must escalate for repeat
offenses. For example, an FFL that was issued a warning letter or
directed to attend a warning conference for a violation cannot be given
the same penalty if a subsequent inspection discovers further violations.
Instead, the penalty must escalate to a warning conference (from a
warning letter) or to revocation. The guidelines also establish a time
frame for part of the adverse action process by directing DIOs to act on
adverse action recommendations within 90 days after receiving the
inspection report.

        In addition to addressing the adverse action process, the guidelines
also address part of the inspection process by requiring that follow-up
inspections on FFLs that had unresolved inventory discrepancies include
a full inventory, unless the DIO approves a statistical sample instead.
Conducting a full inventory identifies all the guns that the FFL may have
lost, and it brings the FFL’s inventory records up-to-date. The FFL then
formally reports any missing guns to the NTC as lost or stolen. The
reporting of lost and stolen guns provides some benefit should one of
those guns be recovered and traced, since it saves the NTC from
contacting the manufacturer and dealer before the NTC knows that the
gun was lost from a specific FFL’s inventory. A full inventory may also
identify more instances of violations to support potential adverse actions.

       However, for the purpose of verifying that FFLs are complying with
the requirement to maintain an accurate inventory, a policy of
conducting full inventories in lieu of valid statistical samples may not be
the most effective use of ATF resources. Conducting full inventories at
larger gun dealers can be very time consuming. Moreover, once an
inspection identifies discrepancies sufficient to document that an FFL’s
inventory system is deficient, completing a full inventory provides only
incremental instances of missing guns. We would not disagree that there
are cases, often related to an investigation, where a full inventory is
desirable – cases like the Bull’s Eye Shooter Supply.66 However,
maintaining an accurate inventory remains the responsibility of the FFL.
Given the limited resources available to the ATF to conduct gun shop


       66 The Bull’s Eye Shooter Supply in Washington State was the FFL that lost the
Bushmaster sniper rifle used in a series of murders across the country in 2002 for
which John Allen Muhammad and Lee Boyd Malvo were subsequently convicted.
Subsequent inspections found that the store could not account for several hundred
guns, including assault weapons.

U.S. Department of Justice
Office of the Inspector General                                                  44
Evaluation and Inspections Division
inspections, restricting inventories to the minimum sample needed to
provide a statistically valid check on the accuracy of the FFL’s record-
keeping system would reduce the length of inspections and enable the
ATF to provide better coverage of FFLs.

By Streamlining and Standardizing Inspections, the ATF Could
Dramatically Improve the FFL Inspection Program

       We found that there is a critical need for the ATF to improve the
efficiency and effectiveness of the FFL inspection program and ensure
that FFLs are inspected using consistent inspection procedures and
sampling criteria regardless of their geographic location. With the
May 2003 guidelines, the ATF began to improve the consistency and
timeliness of adverse actions, as well as to address the critical need to re-
inspect FFLs that committed violations. However, the current variability
in the Field Divisions’ inspection procedures must be addressed to
ensure that adverse actions taken under the May 2003 guidelines treat
FFLs consistently. Requiring defined adverse actions for specific
numbers of violation instances in the absence of standardized inspection
procedures and sampling criteria will result in dissimilar treatment of
FFLs in different Field Divisions. As discussed previously, the ATF’s
guidance on conducting inspections does not ensure consistent
examinations of FFLs’ compliance with gun laws.

     We observed several areas in which the inspection process could
be improved through standardization, such as:

       •   Standardizing inventory procedures to conduct the minimum
           sample needed (based on the number of guns in the FFL’s
           stock) to provide a statistically valid check on the effectiveness
           of the FFL’s inventory management and record-keeping
           systems.

       •   Standardizing the review procedures for Forms 4473 to provide
           for the minimum sample needed to provide a statistically valid
           check (based on the number of guns sold by the FFL) on
           whether the FFL is completing the Forms as required.

       •   Standardizing and automating inspections paperwork and
           providing laptop computers to enable Inspectors to prepare
           inspection reports on-site. Currently ATF Inspectors must
           complete 11 worksheets containing 115 steps and totaling 23


U.S. Department of Justice
Office of the Inspector General                                           45
Evaluation and Inspections Division
                 pages while on-site. Application inspection paperwork
                 comprises 32 steps for the inspection and 56 steps for an
                 acknowledgement of laws. The Inspectors must then transcribe
                 their handwritten notes from the worksheets into the ATF’s
                 N-Spect database upon returning to their Area Office.

       •         Extending the inspection cycle for FFLs with no significant
                 violations. Under the May 2003 guidelines, FFLs found to have
                 committed violations must be scheduled by the ATF Field
                 Division for a follow-up inspection in the following year.
                 Extending that approach, a model standardized inspection
                 procedure could allow Field Divisions to extend the inspection
                 cycle for FFLs that have no significant violations beyond three
                 years, so that available resources can be directed toward
                 noncompliant dealers.

       •         Establish guidance to ensure that Inspectors consistently look
                 for known indications of firearms trafficking and, when found,
                 report the findings to the ATF’s Criminal Enforcement Division.

       Improving the efficiency of the inspection process would also
       U




reduce the need for additional staff. Adopting a standardized inspection
                                          U




process designed to use the minimum review necessary to effectively
gauge FFLs’ adherence to gun laws will increase the efficiency of the FFL
inspection program. This will reduce both the need for additional
Inspector staffing and the burden that inspections place on FFLs. In an
April 2003 report to Congress, the ATF Director stated that, to fully
implement the ATF’s mission to regulate and enforce federal firearms and
explosives laws, the ATF would need 1,775 Inspectors, an increase of
1,277 Inspectors from current staffing levels.67 Of the 1,775 Inspectors,
                                                     TP   PT




1,235 would be dedicated to conducting FFL compliance inspections in
order to inspect all FFLs on a triennial basis. The Director based this
figure, in part, on projections of FFL application and compliance
inspections, as well as inspections initiated to support criminal
investigations. Our review of FY 2002 ATF work hour data shows that it
dedicated 628,117 staff hours (the equivalent of 302 staff years at 2,080
hours per year) to FFL inspections. The requested increase to 1,235
Inspectors would require 933 new Inspectors, and would more than



       67
       TPInspector Staffing Requirement for the Bureau of Alcohol, Tobacco, Firearms and
            PT




Explosives, April 15, 2003.

U.S. Department of Justice
Office of the Inspector General                                                   46
Evaluation and Inspections Division
quadruple the Inspector workforce dedicated to inspecting FFLs.68 In the
Department’s FY 2005 Budget Request, it recommended funding 126
new Inspector positions for the ATF.

       We examined the ATF’s calculations and question whether it needs
as many Inspectors as stated. The ATF projection was calculated using
an overall average inspection time of 62.7 hours per inspection (Table 4,
on the next page). However, according to the ATF’s FY 2002 data, the
overall average inspection time was only 49.4 hours (628,117 inspection
hours divided by 12,704 total inspections). The ATF request therefore
appears to include an assumed 27 percent increase in the average length
of inspections.

      Calculating the staffing requirement using the ATF’s actual
historical inspection average of about 50 hours per inspection indicates
that the ATF should need a total of only 984 Inspectors (682 new
Inspectors) to accomplish inspections on a triennial basis. Moreover, as
previously discussed, our analysis found wide variations in inspection
implementation and productivity among the ATF Field Divisions. By
standardizing and streamlining its inspection process the ATF could
reduce the average inspection time from the current 49.4 hours, which
would further reduce the number of additional Inspectors that needed to
accomplish FFL compliance inspections on a triennial basis.69 For
example, by reducing the overall average inspection time to 40 hours per
inspection, the ATF should be able to implement a triennial FFL
compliance inspection program with 788 Inspectors (Table 4).

      Increasing the efficiency of the inspection process also is needed
because the demands on ATF Inspectors to perform duties related to
explosives licensees are increasing. Immediately after the terrorist

       68 FY 2002 work hour data was the latest available during our review. The work

hours used in this section do not match the work hours discussed previously because
they include not only time spent directly conducting inspections, but all time in an
Inspector’s work year, such as leave, training, sick days. This additional time must be
considered when calculating staffing requirements.

       69 We noted that the ATF was exploring other ways to reduce the demands on

Inspectors, including a December 2003 proposal to hire former Inspectors to serve as
Hearing Officers and a Flexiplace Pilot Program. The Flexiplace Pilot reduced the
requirement for 23 Inspectors from 15 Field Divisions to work from ATF Area Offices,
allowing more inspections of geographically remote FFLs. An August 2003
Headquarters review of the program concluded that it improved the performance of the
Inspectors who participated. As of January 2004, the ATF had not expanded the
program.

U.S. Department of Justice
Office of the Inspector General                                                  47
Evaluation and Inspections Division
                            Table 4: ATF STAFFING REQUEST CALCULATIONS

                                                    Number of       Hours per                  Inspector FTE @
                 Activity                          Inspections     Inspection*   Total Hours     2080 Hours
Non-YCGII FFL Compliance Inspections                 22,889            66         1,510,674         726.3
YCGII FFL Compliance Inspections                     11,444            80          915,520          440.2
Support Criminal Investigations                        631             73          46,063            22.1
Firearms Applications                                 6,000            16          96,000            46.2
Total                                                 40,964          62.7       2,568,257         1234.7
   •    ATF staffing calculations include indirect time



              OIG RECALCULATION: ATF STAFFING AT 50 HOURS PER INSPECTION

Non-YCGII FFL Compliance Inspections                      22,889        51.5       1,178,784         566.7
YCGII FFL Compliance Inspections                          11,444        63.5        726,752          349.4
Support Criminal Investigations                            631           73         46,063            22.1
Firearms Applications                                     6,000          16         96,000            46.2
Total                                                     40,964         50        2,047,599         984.4


              OIG RECALCULATION: ATF STAFFING AT 40 HOURS PER INSPECTION
Non-YCGII FFL Compliance Inspections                  22,889            40         915,560           440.2
YCGII FFL Compliance Inspections                      11,444           50.8        581,360           279.5
Support Criminal Investigations                         631             73          46,063            22.1
Firearms Applications                                  6,000            16          96,000            46.2
Total                                                 40,964            40        1,638,983           788


   attacks of September 11, 2001, the ATF initiated a policy of investigating
   all incidents of theft or loss of explosives materials, and conducting
   compliance inspections on all explosives license holders within 50 miles
   of major metropolitan areas. This meant that the ATF had to inspect
   7,459 of 9,400 explosives license holders. In November 2002, the Safe
   Explosives Act (SEA) imposed new licensing requirements that increased
   the number of explosives licensees, and mandated that the ATF conduct
   on-site inspections of explosives licensees and permit holders at least
   once every three years.

         The additional explosives work is already reducing ATF’s ability to
   inspect FFLs. The Chief of Staff of the ATF’s Firearms, Explosives and
   Arson Directorate confirmed that Inspector resources have been diverted
   to explosives work by Area Supervisors to meet the SEA’s inspection
   requirements. As a result, she said, the ATF plans to re-examine
   Inspectors’ firearms work because ATF Headquarters officials are
   “worried” that FFLs are not being inspected. Our review of preliminary
   data for FY 2004 inspections work confirmed these concerns.

   U.S. Department of Justice
   Office of the Inspector General                                                              48
   Evaluation and Inspections Division
Preliminary data for early FY 2004 indicated that there has been a
precipitous decrease in the number of FFL inspections. Through the first
five months of FY 2004, the ATF completed 1,113 FFL compliance
inspections. At that pace, the agency will complete less than 2,700 FFL
compliance inspections during FY 2004. That is less than half the
number that the agency reported that it completed in FY 2003, and less
than 2.6 percent of the FFL population. For example, the Kansas City
Field Division, which oversees the most FFLs of any Field Division (with
8,194 FFLs) completed only 21 FFL compliance inspections in the first
five months of FY 2004.

       Reducing the time spent at FFLs’ places of business. The time that
ATF Inspectors spend on-site at FFLs cannot be calculated definitively.
Although the ATF’s inspection hour tracking system shows that the ATF
spent a total of 257,723 hours conducting FFL inspections in FY 2002, it
does not allow the time spent on travel and other inspection related
actions performed away from FFL locations to be segregated from the
total inspection hours. Nonetheless, any increase in inspection efficiency
would reduce the overall time spent conducting reviews on-site at the
FFLs, and minimize any potential interruption of the FFLs’ business
operations.

ATF Does Not Consistently Report Inspection Performance

       In response to our requests for inspections and workload data
(such as the number of compliance and application inspections
conducted and the Inspector work hours associated with completing
these inspections during FY 2002), the ATF queried its N-Spect, FLS, and
Standard Time and Attendance System (STATS) electronic databases.
N-Spect tracks direct time related to FFL inspections, FLS tracks
information related to FFL licensees, and the STATS timekeeping system
tracks direct and indirect hours for payroll purposes. During our
examination of the performance and productivity of the ATF’s FFL
inspections program, we identified significant discrepancies between the
systems with regard to the number and type of inspections conducted
and the hours spent conducting the inspections. In addition, the data in
the systems regarding the number of inspections done differed
significantly from what the ATF included in published reports. Finally,
data contained in the N-Spect database contained significant errors: after
extracting data to respond to our requests, ATF officials determined that
several hundred inspections entered as compliance inspections were
actually application inspections.


U.S. Department of Justice
Office of the Inspector General                                      49
Evaluation and Inspections Division
      Table 5 contains examples of inconsistent data related to the ATF’s
FY 2002 ATF’s FFL inspections program that the ATF provided to OIG
and reported publicly.


  Table 5: Inconsistent N-Spect Totals of FY 2002 FFL Inspection Activities

        Data Source                   FY 2002 Totals               Inspection Type
 N-Spect data provided to the             12,522               Total Inspections (the ATF
 OIG in May 2003                                               claimed data could not be
                                                               broken down by inspection
                                                               type)
 Revised N-Spect data                      7,665               Application Inspections
 provided to the OIG in
 February 2004                             5,039               Compliance Inspections

                                          12,704               Total Inspections
 Revised N-Spect data                      8,123               Application Inspections
 adjusted to correct miscoded
 inspections provided to the               4,581               Compliance Inspections
 OIG Team on May 20, 2004
                                          12,704               Total Inspections
 FLS Licensee Inspection                   4,722               FY 2002 new licensees
 Data                                                          with “inspection date”
                                                               indicating that an
                                                               application inspection was
                                                               conducted
 ATF Snapshot 2003                “Approximately 6,000”        Compliance Inspections
 ATF Performance and            “Eleven percent” of all FFLs   Total Inspections
 Accountability Report 2002           were inspected.

                                  11% of 104,300 FFLs is
                                   equivalent to 11,473
                                       inspections

      In addition to FY 2002 data discrepancies, current data from ATF’s
N-Spect database shows that the ATF conducted 5,729 application
inspections and 4,035 compliance inspections in FY 2001, as well as
8,043 application inspections and 5,887 compliance inspections in
FY 2003. Previously, the ATF had published reports and provided draft
reports to the OIG indicating that it conducted more inspections: 5,497
application inspections and 5,016 compliance inspections in FY 2001
and 8,422 application inspections and 6,481 compliance inspections in
FY 2003.

U.S. Department of Justice
Office of the Inspector General                                                    50
Evaluation and Inspections Division
       We discussed these substantial inconsistencies with ATF
Headquarters officials. They explained that the inconsistencies were due
to differences in how the queries of the N-Spect electronic database were
constructed by different ATF analysts. For instance, according to the
ATF Deputy Assistant Director for Field Operations, the ATF report on
FY 2002 activities (ATF Snapshot 2003) reported a higher number of
inspections completed because it aggregated all Inspector activities to
determine the number of compliance inspections conducted by ATF
Inspectors, and included limited purpose inspections as well as activities
unrelated to FFL compliance inspections. Another reason for the
discrepancies related to the project codes used to identify types of
inspections. According to ATF Headquarters officials, Area Supervisors
do not always use the correct project codes when assigning inspections
because the codes are “confusing.” For our review, ATF Headquarters
officials had to query an N-Spect “Special Instructions” data field for
“firearms application inspection” and “firearms compliance inspection”
rather than the appropriate project code in order to more accurately
determine inspection totals.

       The ATF has taken steps to ensure that inspection totals are
accurately measured. In October 2003, the ATF released a new version
of N-Spect that requires Area Supervisors to use pull-down menus that
are inspection-specific (e.g., “Application Inspection”). Moreover,
although the enhancements to the N-Spect database will increase the
reliability of the data in the system, the ATF must adopt a standard
approach for querying the N-Spect electronic database and ensure that
queries are stored for future use so that subsequent requests for the
same data will elicit comparable results. If the ATF does not adopt a
standard method for querying and extracting historical data, it cannot
consistently report accurate performance data.

New Restriction on Retention of Gun Purchaser Data will Hinder the
ATF’s Ability to Detect Fraudulent Background Checks

       As discussed in the Background section, prior to transferring a
firearm to an unlicensed individual, an FFL must complete a check of the
National Instant Criminal Background Check System (NICS) to determine
if the potential purchaser is prohibited from owning a gun. For each
query, the NICS currently collects information on whether or not the
purchase was allowed to proceed, and retains information on the
potential purchaser for 90 days. The FBI assigns each query a unique
NICS Transaction Number (NTN), which FFLs are required to enter onto
the corresponding Form 4473.

U.S. Department of Justice
Office of the Inspector General                                      51
Evaluation and Inspections Division
        For the majority of dealers, NICS is a valuable tool that enables
them to quickly determine whether a potential customer is prohibited
from purchasing a firearm. However, some gun dealers could attempt to
hide transfers to prohibited persons by falsifying NICS information. To
deter fraud and detect FFLs that may be providing false information to
pass a NICS check in order to facilitate a sale to a prohibited person,
during FFL compliance inspections ATF Inspectors verify that the
information submitted to NICS matches the information on the Form
4473. The Inspectors copy information on selected Forms 4473 from the
past 90 days and check with the FBI to ensure that the information on
the Form 4473 matches the information that the FFL provided at the
time of the sale. If discrepancies are found, it may indicate than an FFL
submitted false information to NICS in order to receive an NTN
associated with a background check for a non-prohibited person. The
ATF reported that it has not found any NICS violations involving the
falsification of purchaser information through the Forms 4473 review.70

       However, the ability of ATF Inspectors to conduct this Form 4473
review was affected when the FY 2004 appropriations act reduced the
time that the FBI can retain information submitted by FFLs during the
NICS check.71 Beginning in July 2004, all purchaser information (e.g.,
name, address, date of birth) on NICS queries for which firearms sales
are approved will no longer be kept for 90 days; it must be destroyed
within 24 hours of the official NICS response to the FFL.72 For approved
sales, the FBI can retain for 90 days the NTN, the license number of the
FFL that contacted NICS, and the date that the NICS query was made.



       70  Gun Control: Potential Effects of Next-Day Destruction of NICS Background
Check Records, General Accounting Office, Report GAO-02-653, July 2002, 16-18. ATF
Headquarters officials said, however, that they believe FFLs are aware of the ATF’s
procedures for inspecting Forms 4473 and are thereby deterred from supplying NICS
with false purchaser information. The officials noted that the vast majority of
discrepancies identified during FFL inspections occur because of clerical errors made by
FFLs or Inspectors, such as FFL errors in recording purchaser information onto Forms
4473 or Inspector errors in copying information onto worksheets.

        71 The Fiscal Year 2004 Consolidated Appropriations Bill (Public Law 108-199)

states that DOJ cannot retain “identifying information” related to sales of firearms to
non-prohibited persons for more than 24 hours. All information related to calls for
which potential sales are denied by NICS will still be retained indefinitely.

       72  As of March 2004, NICS officials plan on purging purchaser information every
night, at midnight (EST). Therefore, purchaser information related to a firearm bought
at 5 p.m. will be purged seven hours later.

U.S. Department of Justice
Office of the Inspector General                                                    52
Evaluation and Inspections Division
After 90 days, the FBI may retain only the NTN and the date that the
number was issued.

       In 2002, ATF Headquarters officials suggested that the ATF’s FFL
compliance inspections program would not be affected by a “Next Day
Destruction” provision.73 Instead of submitting information copied from
                               TP   PT




Forms 4473 to NICS, ATF Headquarters officials said that Inspectors
could “recheck” the eligibility of purchasers by requesting that the FBI
rerun selected NICS checks taken from FFL records during compliance
inspections. However, while resubmitting Form 4473 information to
NICS will determine whether the purchaser would be approved on the
date of the recheck, it does not enable the ATF to effectively detect that
the FFL supplied inaccurate information to NICS. There are reasons
other than FFL fraud for a prior approved purchase to fail during a
recheck. For instance, the purchaser may have become ineligible only
since the sale, or the FBI NICS operator on the original query may have
transposed letters or numbers resulting in an erroneous approval. Given
these and other possible explanations, the lack of information in NICS
will make it much more difficult for the ATF to prove that FFLs supplied
false information initially.

       Moreover, the shortened retention time will make it much easier
for corrupt FFLs to avoid detection. We identified at least two potential
ways that the new restriction would make it easier for corrupt FFLs to
falsify the NICS check to hide a knowing transfer of a gun to a prohibited
person.

       •            An FFL may enter correct information from the prohibited
                 person on the Form 4473, but relay information for a person
                 with a known “clean” record to the FBI for the NICS check.
                 After July 2004, the ATF will have only 24 hours to detect this
                 by cross-checking purchaser information in the FFL’s records
                 with NICS records.

       •            An FFL may falsify the date of the sale. Three factors make
                 this tactic even safer for corrupt FFLs with only a 24-hour
                 retention time – the fact that blank Forms 4473 are not serially
                 numbered, A&D books are kept sequentially by the date that
                 the FFL receives the guns (so disposition dates are not expected
                 to be sequential), and after 90 days the NICS will retain only the

       73
       TPGun Control: Potential Effects of Next-Day Destruction of NICS Background
            PT




Check Records. General Accounting Office, Report GAO-02-653, July 2002.

U.S. Department of Justice
Office of the Inspector General                                                  53
Evaluation and Inspections Division
            issue date for NTNs on approved transfers. To safely backdate a
            sale, a corrupt FFL needs only a good NTN that was issued to
            another FFL on a known date over 90 days before.74 As long as
            the date on the Form 4473 and the “disposition date” in the
            A&D book match the date that the NTN was issued – and the
            dealer does not make the mistake of “selling” a gun on a date
            before it was received – the fraud will be exceedingly difficult to
            detect.

     Given the new restriction on retaining NICS data, after July 2004
an ATF Inspector arriving on-site could only check the information on
Forms 4473 filled out by the FFL that day. Therefore, the likelihood of
encountering a falsified NICS check would be remote.

CONCLUSIONS

      We concluded that the ATF’s FFL inspection program did not
consistently ensure that FFLs comply with federal firearms laws. The
lack of standardized inspection procedures resulted in inconsistent
inspections of FFLs and significant variation in the implementation of the
inspection program by Field Divisions. Our review of N-Spect
performance data found that ATF’s Field Divisions took an average of
35.3 hours to conduct FFL inspections to detect noncompliance with
federal firearms laws, and one Division took only 24.5 hours on average
to conduct its compliance inspections. We found no operational reasons
why some Field Divisions averaged much longer, up to 90 hours, to
conduct compliance inspections. In fact, we found little or no correlation
between inspection times and enforcement activities, such as referrals of
suspected criminal activity and adverse actions taken. Further, our
finding that the Field Divisions varied significantly in such productivity
measures as number of inspections finding violations and number of
inspections done by each Inspector argues strongly for implementation of
a more standardized and efficient inspection regimen.

      Because the ATF does not conduct regular inspections of FFLs and
lacks adequate resources to meet agency goals, it cannot effectively
monitor the overall level of FFL compliance with federal firearms laws. In


       74 Using an NTN from another FFL limits the possibility that the fraud may be
detected through the chance discovery of the same NTN twice in the FFL’s records.
Because NICS will delete which FFL an NTN was issued to, and FFLs are inspected
independently, even where one individual holds multiple FFLs for different business
locations, it will be very unlikely that such reuse of NTNs will be discovered.

U.S. Department of Justice
Office of the Inspector General                                                  54
Evaluation and Inspections Division
December 2003, the ATF initiated a program to conduct special Random
Sample Compliance Inspections to develop a risk model for the FFL
inspection program. Using data from those inspections, the ATF planned
to “be able to project the overall level of compliance by” gun dealers,
pawnbrokers, and collectors.75 While the project to estimate the overall
level of compliance with laws is needed to estimate the challenges facing
the ATF, it does not take the place of regular compliance inspections for
deterring and identifying noncompliance with gun laws.

       To ensure that all FFLs are treated consistently, and that the FFL
inspection program is as efficient as possible, the ATF needs to
implement a policy to ensure that inspections are conducted in a
uniform manner, that inspections procedures are limited to the
minimum steps needed to accomplish a valid review, and that violations
are processed in a uniform and appropriate manner. A consistent and
timely inspection process is essential for identifying and addressing
scofflaw dealers and reducing the availability of illegal firearms to
criminals.




       75 Memorandum, Assistant Director for Firearms, Explosives, and Arson to All
Special Agents In Charge, December 8, 2003. ATF officials told us that the
memorandum was not distributed to the Field Divisions until January 2004.

U.S. Department of Justice
Office of the Inspector General                                                55
Evaluation and Inspections Division
                                 RECOMMENDATIONS

       We recommend that the ATF:

       1. Develop a standard, streamlined inspection process that
          includes in-person inspections of all FFL applicants; more
          efficient inventory and records reviews; automated inspection
          reporting; and consistent examination of indicators of firearms
          trafficking.

       2. Conduct a pilot project to test the streamlined inspection
          procedures and establish appropriate time standards for
          conducting these inspections.

       3. Revise the staffing requirement report using the time standards
          to reflect the number of Inspectors needed to conduct
          compliance inspections on a triennial basis, or on an alternative
          schedule based on the FFL’s compliance history.

       4. Develop alternatives for better aligning Inspector resources with
          the distribution of FFLs, such as by redrawing Field Division
          boundaries, realigning personnel, or other methods.

       5. Update the inspection tracking system to accurately segregate
          and report on Inspector time spent preparing for inspections, in
          travel, on-site at FFLs, and conducting other administrative
          duties.

       6. Prepare quarterly reports on the productivity and results
          achieved by each Field Division.

       7. Direct the National Licensing Center to develop an adverse
          action tracking system to monitor the progress and timeliness
          of FFL denials and revocations from the time an Inspector
          makes a recommendation until the proceedings are finalized.

       8. Continue coordinating with the Department of Justice, Office of
          Legislative Affairs, to gain the authority to suspend or impose
          civil penalties on FFLs that violate federal firearms laws.




U.S. Department of Justice
Office of the Inspector General                                        56
Evaluation and Inspections Division
       9. To improve the comprehensiveness of crime gun tracing by law
          enforcement agencies:

          a. Coordinate with the Office of Justice Programs to determine
             the feasibility of using discretionary grant funding to support
             crime gun tracing.

          b. Develop a model for more accurately identifying potential
             firearms trafficking through the analysis of an FFL’s firearms
             sales volume and the number of firearms traced to the FFL.




U.S. Department of Justice
Office of the Inspector General                                        57
Evaluation and Inspections Division
                    Appendix I: ATF Form 4473 (Page 1)




U.S. Department of Justice
Office of the Inspector General                          58
Evaluation and Inspections Division
                    Appendix I: ATF Form 4473 (Page 2)




U.S. Department of Justice
Office of the Inspector General                          59
Evaluation and Inspections Division
                    Appendix II: Area Supervisor Survey




                       U.S. Department of Justice
                       Office of the Inspector General
                           Area Supervisor Survey

        Purpose: This survey is being conducted by the U.S. Department of
Justice, Office of the Inspector General (OIG). The OIG is evaluating the
effectiveness of the Federal Firearms Licensee (FFL) inspection programs
implemented by the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF).

       Note: Please be advised that any information collected from this survey
will not be attributed to individual Area Supervisors.

       Directions: This survey should take approximately 10 minutes to
complete. Click on the gray areas to complete your responses. Please complete
and return to the OIG via email or fax by October 24, 2003. The fax number is
provided at the end of the survey. If you have any questions concerning this
survey, please call OIG Inspector                 , at              .

             Please return your completed survey by October 24, 2003.


        Name:

        Field Division:

        Telephone Number:


       Inspector Staffing
       Please limit your responses to your Group and Satellite Office staff
only – not to the entire Field Division.

   1.      How many Inspectors are currently assigned to your Group?

U.S. Department of Justice
Office of the Inspector General                                            60
Evaluation and Inspections Division
   2.     In your opinion, is your Group staffed so that your Inspectors
          can adequately inspect the Federal Firearms Licensees and
          explosives permitees in your Area?

              Yes               No

          [If Yes, please skip to Question 4.]

   3.     How many additional Inspectors would need to be assigned to
          your Group so that your Inspectors could adequately inspect
          the Federal Firearms Licensees and explosives permitees in
          your Area?



   4.     How many of your Inspectors also serve as Adverse Action
          Hearing Officers, if any?



   5.     How many Special Operations Inspectors are assigned to your
          Group, if any?



     Federal Firearms Licensees
     Please limit your answers in this section to your Group, as well
as any Satellite Offices assigned to your group.

   6.     On average, how many new FFL applications are processed for
          your Area Office each month by the National Licensing Center?



   7.     How many new FFL applicant inspections do you assign to your
          staff?

              All               Some (As Needed)     None

          [If None, skip to Question 9]




U.S. Department of Justice
Office of the Inspector General                                       61
Evaluation and Inspections Division
   8.     How are new FFL applicant inspections conducted?

              By Phone          In Person            Both

   9.     To the best of your knowledge, how many FFL inspection
          assignments in your Group were pre-determined by ATF
          Headquarters, in fiscal year 2003?



   10.    How many inspections pre-determined by ATF Headquarters do
          you plan to assign in fiscal year 2004?



   11.    Are any of these 2004 inspections carry-overs from 2003?

                     Yes.             No.

   12.    To the best of your knowledge, how many FFL inspection
          assignments in your Group were pre-determined by the
          National Tracing Center, in fiscal year 2003? Please specify,
          according to inspection type.

               Focused Inspections.

               Demand Letter Inspections.

               Other NTC-assigned Inspections.

   13.    How many inspections pre-determined by the National Tracing
          Center do you plan to assign in fiscal year 2004?



   14.    Are any of these 2004 inspections carry-overs from 2003?

                     Yes.             No.




U.S. Department of Justice
Office of the Inspector General                                           62
Evaluation and Inspections Division
   15.    To the best of your knowledge, how many FFL inspection
          assignments in your Group were based on information referred
          from ATF Special Agents, in fiscal year 2003?

              None              1 to 5   6 to 10     10+

     Explosives Permittees
     Please limit your answers in this section to your Group, as well
as any Satellite Offices assigned to your group.

   16.    How many explosives inspections do you plan to assign in fiscal
          year 2004?



   17.    What impact has the Safe Explosives Act had on your Group’s
          ability to inspect FFLs? (Please describe.)



     Federal Firearms Licensee Inspections
     Please limit your answers in this section to your Group, as well
as any Satellite Offices assigned to your Group.

   18.    On average, how many work hours should a New Application
          Inspection take an Inspector to complete, including travel time
          and writing the report?

                 Hours.

   19.    Please rate the effectiveness of the National Tracing Center data
          in determining which FFLs should be inspected in your area.

             Very Effective
             Somewhat Effective
             Somewhat Ineffective
             Very Ineffective
             Not Applicable




U.S. Department of Justice
Office of the Inspector General                                       63
Evaluation and Inspections Division
     20.      Why is the National Tracing Center data effective or ineffective
              in determining which FFLs should be inspected in your area,
              and how might this be improved? (Please describe.)



     21.      Please rate the effectiveness to which the list of mandatory
              inspections, provided by ATF Headquarters, adequately and
              fully identify those FFLs that should be inspected, based on
              indications that the FFL is violating Federal firearms laws?

                 Very Effective
                 Somewhat Effective
                 Somewhat Ineffective
                 Very Ineffective
                 Not Applicable

     22.      Why is the ATF Headquarters data effective or ineffective in
              determining which FFLs should be inspected in your area, and
              how might this be improved? (Please describe.)



     23.      If enacted in your Group, please rate the effectiveness of the
              Flexiplace Program, as it would relate to your Inspectors
              conducting FFL inspections? (Flexiplace is a program under
              which employees are permitted to perform all or a portion of
              their duties at a Flexiplace work telecommuting center.)

                 Very Effective
                 Somewhat Effective
                 Somewhat Ineffective
                 Very Ineffective
                 Not Applicable


           Submitting this survey
           You may submit this survey by email or fax.
           Please return by October 24, 2003.

Email:     To email this survey:
                 1. Save your completed survey as a new MS-Word document.
                 2. Hit ‘reply’ to the original OIG email.
                 3. Attach survey to ‘reply’ email before sending.


  U.S. Department of Justice
  Office of the Inspector General                                            64
  Evaluation and Inspections Division
Fax:     To fax this survey, please print out your completed survey and fax it to:
            (xxx) xxx-xxxx. (Surveys completed by hand will also be accepted.)
            Please address your fax cover sheet to: Office of the Inspector
            General, Attention: Inspector xxxxxxxxxxxxxxxxxxxxxxx.




  U.S. Department of Justice
  Office of the Inspector General                                              65
  Evaluation and Inspections Division
              APPENDIX III: ATF COMMENTS ON THE DRAFT REPORT




U.S. Department of Justice
Office of the Inspector General                                66
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       67
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       68
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       69
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       70
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       71
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       72
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       73
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       74
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       75
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       76
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       77
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       78
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       79
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       80
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       81
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       82
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       83
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       84
Evaluation and Inspections Division
                 APPENDIX IV: OIG ANALYSIS OF THE ATF’S
                             COMMENTS


            On June 4, 2004, the Office of the Inspector General (OIG)
sent copies of a draft of this report to the Bureau of Alcohol, Tobacco,
Firearms and Explosives (ATF) with a request for written comments.
The ATF responded to us in a memorandum dated June 29, 2004.

       The ATF fully concurred with seven of our nine recommendations.
The ATF did not concur with our recommendation on updating its
inspection tracking system to more accurately segregate and report on all
Inspector time spent on inspections. Instead, the ATF offered an
alternative solution for updating N-SPECT, explaining that an update to
the overall system, N-FOCIS, would accomplish what we recommended.
The ATF also conditionally concurred with the recommendation on
developing a model to more accurately identify potential firearms
trafficking, although it suggested that implementing the recommendation
would be difficult. The ATF also provided general comments on the
findings contained in the draft report. Our analysis of the ATF’s
comments on the recommendations and findings in the draft report
follows.

       THE ATF’S RESPONSE TO RECOMMENDATIONS

      Recommendation 1: Develop a standard, streamlined
       U                        U




inspection process that includes in-person inspections of all Federal
Firearms Licensee (FFL) applicants; more efficient inventory and
records reviews; automated inspection reporting; and consistent
examination of indicators of firearms trafficking.

       Status: Resolved – Open

                 Summary of the ATF’s Response: The ATF concurred with
           our recommendation and stated that it is taking a series of steps to
           implement it, including:

           •   In-person application inspections are now required in 14
               metropolitan areas, and ATF also is increasing the number of
               in-person application inspections conducted nationwide.




U.S. Department of Justice
Office of the Inspector General                                           85
Evaluation and Inspections Division
       •   A memorandum titled “Guidelines for Conducting Federal
           Firearms Licensee Compliance Inspections” was issued in June
           2004 to clarify a number of inspection process issues such as
           the methods for verifying FFL inventories, record review periods,
           and ATF Form 4473 reviews.

       •   The ATF is reevaluating all work plans and workpapers to
           eliminate tasks that are not critical to a final inspection report.

       •   An ATF working group is developing a work plan for Focused
           Compliance Inspections. The working group’s initial milestone
           is to provide comments to ATF management by October 1,
           2004.

       •   The Inspector Handbook is being updated to provide better
           guidance to Inspectors on conducting inspections.

              In response to our recommendation that the ATF automate
       its inspection procedures, the ATF stated that Inspectors have
       laptop computers at their disposal, but that many FFLs object to
       the use of these computers during inspections. The ATF stated
       that these FFLs are concerned that the laptop computers might be
       used to create a registry of firearms and firearms owners,
       something the ATF is prohibited by law from doing.

             The OIG’s Analysis: The ATF’s proposed actions are
       responsive to the recommendation. By October 31, 2004, please
       provide copies of or status reports on the following:

       •     The “Guidelines for Conducting Federal Firearms Licensee
           Compliance Inspections,” June 2004,

       •      The names of the 14 metropolitan locales that now require
           in-person application inspections,

       •      The new inspection reporting procedures that are under
           development,

       •      The Focused Inspection Work Plan that is under
           development, and

       •      The updated Inspector Handbook.

U.S. Department of Justice
Office of the Inspector General                                           86
Evaluation and Inspections Division
       The ATF’s comment on the use of laptops is not responsive to the
       recommendation to automate inspection reporting. We are not
       persuaded that FFLs should be allowed to determine how the ATF
       conducts its inspections. The fear ascribed to some FFLs is
       groundless. Creating an effective national firearms registry would
       require information on all gun sales by all FFLs – a logistical
       impossibility for the ATF. The ATF’s current practice of taking
       handwritten notes while onsite at an FFL and later transcribing the
       information into a computer is no more or less likely to facilitate
       the hypothetical national firearms registry than is entering
       inspection information directly into a computer while onsite.
       Rather, we believe that educating FFLs on the implausibility of
       their concern, as well as the potential benefits of quicker
       inspections and more accurate inspection records for the FFL,
       could help overcome such objections. Therefore, we request that
       the ATF reconsider this response and also identify steps to improve
       the automation of the inspection process.

Recommendation 2: Conduct a pilot project to test the streamlined
inspection procedures and establish appropriate time standards for
conducting these inspections.

       Status: Resolved – Open

       Summary of the ATF’s Response: The ATF concurred with this
       recommendation and stated that it was developing streamlined,
       standardized inspection procedures, which it planned to test in
       several divisions in a pilot project during Fiscal Year 2005.

       The OIG’s Analysis: The ATF’s proposed action is responsive to
       the recommendation. By October 31, 2004, please provide us with
       the streamlined inspection procedures that will be used in the pilot
       project, as well as the planned start and completion dates, and
       locations, for the pilot project.

Recommendation 3: Revise the staffing requirement report using
the time standards to reflect the number of Inspectors needed to
conduct compliance inspections on a triennial basis or on an
alternative schedule based on the FFL’s compliance history.

       Status: Resolved – Open


U.S. Department of Justice
Office of the Inspector General                                       87
Evaluation and Inspections Division
       Summary of the ATF’s Response: The ATF concurred with our
       recommendation and stated that it created a working group to
       develop a workload model. A completion date for the effort has not
       yet been established, but a status report from the working group
       was due by late June 2004 to the Assistant Director (Field
       Operations). Further, in its response to Recommendation 4, the
       ATF stated that it has contracted with an academic researcher to
       develop recommendations to improve performance measures to
       help the ATF maximize its existing resources.

       The OIG’s Analysis: The ATF’s proposed action is responsive to
       the recommendation. By October 31, 2004, please provide us with
       copies of the status reports submitted by the working group, the
       schedule for the completion of the workload model, any revised
       staffing requirement reports, and copies of the recommendations of
       the academic researcher for improving the utilization of existing
       resources.

Recommendation 4: Develop alternatives for better aligning
U                       U




Inspector resources with the distribution of FFLs, such as by
redrawing Field Division boundaries, realigning personnel, or other
methods.

       Status: Resolved – Open

       Summary of the ATF’s Response: The ATF responded that the
       rationale for how Inspectors were allocated to its Field Divisions
       was based on its former alcohol and tobacco oversight
       responsibilities (which are now assigned to the Department of the
       Treasury), as well as its explosives inspections activities. The ATF
       recently began consolidating its Director of Industry Operations
       (DIO) positions so that they are better aligned with its FFL and
       explosives inspection workload. Also, using the new workload
       model for Inspector staffing developed in response to
       Recommendation 3, the ATF will evaluate the need to reassign
       Inspectors to better align resources with the distribution of FFLs
       and explosives licensees.

       The OIG’s Analysis: The ATF’s proposed action is responsive to
       the recommendation. By October 31, 2004, please provide us with
       a schedule for completing the assessment of the alignment of
       Inspector resources with the FFL population and any analyses of
       the current and planned distribution of resources.

U.S. Department of Justice
Office of the Inspector General                                        88
Evaluation and Inspections Division
       Recommendation 5: Update the inspection tracking system to
       U                       U




       accurately segregate and report on Inspector time spent
       preparing for inspections, in travel, onsite at FFLs, and
       conducting other administrative duties.

       Status: Unresolved – Open

       Summary of the ATF’s Response: The ATF did not concur with
       the recommendation, stating that because it “does not believe it is
       necessary to categorize Inspector work time by function (e.g., travel
                                                                 U   U




       time v. preparation time)” to ensure that Inspectors are operating
       efficiently. The ATF stated that it believes its current case
       management system, N-FOCIS, uses project codes to accurately
       account for “all administrative costs associated with ATF’s
       mission.” The ATF stated that it has upgraded its N-FOCIS system
       [which includes the N-Spect FFL inspection database] to segregate
       inspection activities by type (i.e., application inspections versus
                                      U   U




       compliance inspections) to “provide for better categorization of
       inspector workloads.”

       The OIG Analysis: The ATF’s comments and alternative actions
       are not responsive to the recommendation to update the tracking
       system to segregate and report on Inspector time. From the
       description of the recent upgrades to the N-FOCIS system provided
       by the ATF, it appears that the ATF will be better able to track data
       on each type of inspection and how it was conducted. However,
       from the information provided, it appears that the ATF will still be
       unable to quantify Inspector time spent onsite, in travel, and
       accomplishing other administrative and non-inspection related
       activities.

       However, a system that does not track all categories of Inspector
       time is inadequate for ensuring that activities are conducted
       efficiently. In our review, we found that only 41 percent of ATF
       Inspectors’ firearms-related work time is spent directly on
       inspection activities (including traveling to and from the FFL’s
       place of business). Fifty-nine percent of the Inspectors’ time was
       spent on activities not directly related to inspections, such as
       training, answering telephone inquiries from FFLs, or other
       administrative tasks. Implementing a tracking system that can
       measure the time spent on all of these activities – not just data
       related to the specific type of inspection assignment – is essential
       to developing and implementing an effective workload model and to

U.S. Department of Justice
Office of the Inspector General                                          89
Evaluation and Inspections Division
       redistributing resources to match the workload, actions which the
       ATF stated in its response to Recommendations 3 and 4 that it
       plans to undertake in FY 2005.

       To develop a workload model for aligning Inspector resources with
       regulatory needs, the ATF must be able to segregate and analyze
       all Inspector time, not just time spent directly on conducting
       inspections. If the ATF does not categorize and measure Inspector
       work time by function, it will be difficult to establish appropriate
       performance goals, account for the variability among its divisions,
       or accurately report its productivity.

       Please reconsider this response and provide us by August 3, 2004,
       whether the ATF will create a plan for updating the inspection
       tracking system to accurately segregate and report on all Inspector
       time or, in the alternative, how the ATF plans to develop a
       comprehensive workload model without such information.

Recommendation 6: Prepare quarterly reports on the productivity
and results achieved by each Field Division.

       Status: Resolved – Open

       Summary of the ATF’s Response: The ATF stated that to
       address this recommendation, it created the position of Assistant
       Director (Field Operations) to better manage the ATF’s regulatory
       enforcement efforts in the field. One of the first tasks of the
       Assistant Director was the creation of a quarterly reporting system
       on inspection productivity and results by each Field Division. The
       ATF also established the Case Management Branch within the
       Field Operations Directorate for tracking and evaluating industry
       operations and criminal enforcement activities, conducting case
       comparisons, and making appropriate recommendations.

       The OIG’s Analysis: The ATF’s proposed action is responsive to
       the recommendation. By October 31, 2004, please provide us with
       copies of the quarterly reports, as well as any annual compendium
       or other productivity analyses for FY 2004.




U.S. Department of Justice
Office of the Inspector General                                        90
Evaluation and Inspections Division
Recommendation 7: Direct the National Licensing Center to
develop an adverse action tracking system to monitor the progress
and timeliness of FFL denials and revocations from the time an
Inspector makes a recommendation until the proceedings are
finalized.

       Status: Resolved – Open

       Summary of the ATF’s Response: The ATF concurred with this
       recommendation and tasked the Division Chief, Firearms and
       Explosives Services, with developing and monitoring an improved
       adverse action tracking system for denials and revocations of
       licenses. The ATF also intends to route an electronic version of
       monthly tracking reports to all Division Counsels and DIOs to
       better advise them of how many adverse actions are pending in
       their divisions and how long each case is taking to resolve. The
       ATF also plans to expand the tracking system to incorporate more
       indicators of case progress.

       The OIG’s Analysis: The ATF’s proposed action is responsive to
       the recommendation. By August 3, 2004, please provide us with a
       copy of the functional description of the planned adverse action
       tracking system and a copy of the master schedule for the
       development and implementation of the system.

      Recommendation 8: Continue coordinating with the
Department of Justice, Office of Legislative Affairs, to gain the
authority to suspend or impose civil penalties on FFLs that violate
federal firearms laws.

              Status: Resolved – Open

              Summary of the ATF’s Response: The ATF has indicated
       that it will continue to work with the Department of Justice’s Office
       of Legislative Affairs on obtaining regulatory options such as
       license suspensions and the authority to issue civil penalties in
       lieu of license revocation. The ATF also clarified that it can impose
       fines in one limited circumstance, when an FFL fails to conduct a
       National Instant Criminal Background Check System (NICS) check
       and that NICS check would have resulted in a denial of the sale.

            The OIG’s Analysis: The OIG considers this
       recommendation resolved. By October 31, 2004, please provide us

U.S. Department of Justice
Office of the Inspector General                                        91
Evaluation and Inspections Division
       with updates as to how the ATF is coordinating with the Office of
       Legislative Affairs. We made two minor changes in the report to
       make it clearer that the ATF has no general fining authority but
       can impose a fine in the limited circumstance described above.

     Recommendation 9: To improve the comprehensiveness of
crime gun tracing by law enforcement agencies:

     a. Coordinate with the Office of Justice Programs to
determine the feasibility of using discretionary grant funding to
support crime gun tracing.

              Status: Resolved – Open

             Summary of the ATF’s Response: The ATF’s stated that it
       concurred with the recommendation and planned to initiate
       discussions with other Department entities on the feasibility of
       using discretionary grant funding to support local police
       departments that want to trace crime guns.

             The OIG’s Analysis: The ATF’s proposed action is
       responsive to the recommendation. By October 31, 2004, please
       provide us with the dates of meetings held or planned and copies
       of minutes or other documentation of the topics discussed and the
       decisions made at the meetings.

      b. Develop a model for more accurately identifying potential
firearms trafficking through the analysis of an FFL’s firearms sales
volume and the number of firearms traced to the FFL.

              Status: Resolved – Open

       Summary of the ATF’s Response: The ATF conditionally
       concurred with this recommendation, but stated that retail sales
       volumes are not captured for each FFL dealer on a yearly basis.
       Further, the ATF stated that the number of NICS checks submitted
       by each FFL is not a reliable indicator of sales because purchasers
       can acquire more than one firearm on a single NICS check and
       certain limited types of sales are exempt from a NICS check.
       However, the ATF proposed incorporating the sales data reported
       by FFL dealers applying to renew their licenses as a method to
       identify for inspection those FFLs with the highest ratios of traces
       to reported sales over a 3-year period.

U.S. Department of Justice
Office of the Inspector General                                       92
Evaluation and Inspections Division
       The OIG’s Analysis: The ATF’s proposed action is responsive to
       the recommendation. However, our review found that the ATF’s
       current compliance inspection procedures do not include steps to
       verify the renewal data submitted by the FFLs. We accept the
       ATF’s proposed action, but request that the ATF modify its
       proposal to include adding steps to compliance inspections to
       verify the renewal data against actual FFL Acquisition and
       Disposition Book sales totals. By October 31, 2004, please provide
       us with the implementation plan for comparing FFL trace data and
       reported sales volume.

       ATF COMMENTS ON REPORT FINDINGS

      In addition to addressing the recommendations, the ATF remarked
on the draft report’s findings. In this section, we summarize the ATF’s
comments and provide our analysis of its planned actions.

     FINDING: The ATF does not conduct in-person application
inspections on all new FFLs to verify applicant information and
ensure that they understand firearms laws.

              The ATF’s Comment: The ATF agreed that in-person
       application inspections are critical for ensuring that licensees
       understand and obey federal firearms laws. The ATF stated that it
       is taking steps to conduct in-person application inspections
       nationwide and noted that under its June 2004 policy, all
       applicants who do not receive an in-person application inspection
       must be scheduled for an in-person compliance inspection during
       the first year after they are issued a federal firearms license.

             The OIG’s Analysis: We agree with the ATF’s comments
       and planned course of action.

FINDING: The ATF does not regularly conduct compliance inspections
on active FFLs, including large-scale retailers.

             The ATF’s Comment: The ATF stated that it cannot
       conduct annual compliance inspections of all FFLs due to the large
       number of licensees (more than 104,000) and the small number of
       Inspectors (420). Instead, the ATF stated that it works to focus its
       compliance inspections [Focused Inspection Program] on those
       FFLs with a history of non-compliance and those FFLs with

U.S. Department of Justice
Office of the Inspector General                                       93
Evaluation and Inspections Division
       business practices that indicate signs of potential firearms
       trafficking. The ATF stated that many large-scale FFLs fall into
       one of these categories, thereby requiring that they be inspected.
       According to the ATF, “the fact that an FFL is large does not
       exclude it from being selected for inspection.”

              The OIG’s Analysis: We agree with the ATF’s statement
       that it cannot conduct annual compliance inspections on all FFLs
       with its current resources, and we did not suggest that the ATF
       attempt to do so in the report. To the contrary, we accepted the
       ATF’s stated goal of conducting a compliance inspection on every
       FFL at least once every three years. With additional staffing and
       better utilization of its existing personnel, we believe that goal is
       attainable. In regard to the ATF’s statement that large-scale FFLs
       are often inspected under its Focused Inspection Program and are
       not exempt from inspection, we note that although the ATF
       described these inspections as “mandatory,” our interviews with
       DIOs found otherwise. Two DIOs described these inspections as
       “priorities,” but stated that they do not complete all assigned
       Focused Inspections, including those of large-scale FFLs, because
       of competing demands. Further, the report did not state that large
       FFLs were exempt from inspection, but showed that they were
       statistically treated about the same as all other FFLs with respect
       to infrequent inspections.

     FINDING: The ATF does not identify and inspect all FFLs that
exhibited indicators of potential violations or gun trafficking.

              The ATF’s Comment: The ATF disagreed with our finding
       and stated that it “does identify all FFLs that exhibit indicators of
       potential violations or gun trafficking based on trace data
       available.” However, the acknowledged that it “limit[s] inspection
       requirements based on our available Inspector resources.” The
       ATF also stated that it plans to analyze other factors that should
       be utilized to determine which FFLs should be inspected.

              The OIG’s Analysis: During our inspection, we did not find
       that the ATF ever compiled a list of all FFLs that exhibited
       trafficking indicators (e.g., multiple traces, short time-to-crime
       traces). Instead, in describing how FFLs are identified for Focused
       Inspections, staff of the National Tracing Center (NTC) stated that
       they manipulated the query parameters by limiting the FFLs
       identified to a pre-selected number. That pre-selected number

U.S. Department of Justice
Office of the Inspector General                                          94
Evaluation and Inspections Division
       (350 in FY 2002) was based on the projected availability of
       Inspector resources. The ATF made no attempt to determine an
       unacceptable level of trafficking indicators for FFLs and then
       identify all FFLs that exceeded that level without regard to whether
       all of the FFLs could be inspected with existing resources.
       Therefore, we maintain our finding that the ATF has not identified
       all FFLs that exhibited indicators of potential violations or of
       firearm trafficking.

      FINDING: Gun tracing has significant shortcomings that limit
its use for identifying FFLs that should be inspected.

              The ATF’s Comment: The ATF agreed that gun tracing has
       “weaknesses” and stated that it plans to address shortcomings
       identified in our report by implementing Recommendation 9. The
       ATF disagreed with our comparison of traces submitted by law
       enforcement agencies within a Field Division to the number of
       inspections conducted in that Field Division and stated that the
       comparison is “not especially useful.” The ATF stated that crime
       gun tracing patterns vary by region. The ATF also clarified that the
       NTC was moved to Martinsburg, West Virginia, in 1994 but stated
       that the ATF had conducted tracing before the NTC relocated.

             The OIG’s Analysis: We believe that our comparison of
       trace data to inspections is useful. We do not agree with the ATF’s
       argument that the existence of national trafficking patterns
       negates the use of data on traces submitted in each Division to
       analyze the ATF’s resource management.76 The ATF argues that
       the fact that more traces were submitted in a Division would not
       necessarily mean that more inspections should be conducted in
       that Division because the traced guns may have originally been
       sold by FFLs in other Divisions. Therefore, any inspections would
       have occurred in those Divisions, not in the Divisions where the
       traces were submitted.

             However, the ATF’s own analysis of crime gun recoveries
       (contained in its report Crime Gun Trace Reports 2000) found that
       48 percent of crime guns were recovered within 25 miles of where
       they were originally sold. In contrast, national trafficking patterns

       76 The ATF was unable to provide us with consolidated data on the number of
guns traced to FFLs in each Division, and instead provided the number of traces
submitted by law enforcement agencies, by Field Division.

U.S. Department of Justice
Office of the Inspector General                                                95
Evaluation and Inspections Division
       (i.e., guns recovered more than 250 miles from where they were
       purchased) accounted for more than 30 percent of crime guns
       traced in only 9 cities (including cities that ban handguns, such as
       New York City, Washington, D.C., and Chicago). Those data
       indicate that the preponderance of guns recovered in a Division
       was of local origin. Therefore, we concluded that data on trace
       submissions could be used to approximate the distribution of
       crime gun traced to FFLs in the ATF’s Field Divisions.

             Comparing the number of trace requests to the number of
       inspections conducted in each Division shows whether, on a
       national level, trace data were used to direct resources toward
       inspecting FFLs in Divisions where more crime guns originated.
       Our analysis showed little or no ATF-wide correlation between the
       number of crime guns submitted to the ATF for tracing in a Field
       Division and the number of compliance inspections conducted in
       that Field Division. The lack of any correlation on a national level
       indicates that the ATF is not managing its resources to conduct
       more inspections in Divisions where more crime guns originated.

              The ATF also stated that some Field Divisions use trace data
       to target inspections within the Division. We agree that this is a
       positive use of trace data, and we note in the report that the
       Divisions can and are using the data internally. However, the
       internal use of trace data by Divisions does not negate our primary
       finding that there is little or no correlation between the number of
       traces and the number of inspections ATF-wide. Likewise, the
       ATF’s statement that some localities have few local guns traced
       (which we found was due to restrictions on handgun sales in the
       locality) does not negate our primary finding.

             Regarding the ATF’s comments on the NTC move to
       Martinsburg, we clarified that the ATF’s gun tracing program
       operations were consolidated, not established, in 1994.

     FINDING: ATF Field Divisions implement inspections
inconsistently.

             The ATF’s Comment: The ATF stated that it has been
       working on standardizing and streamlining the present procedures
       for conducting inspections.



U.S. Department of Justice
Office of the Inspector General                                        96
Evaluation and Inspections Division
              The OIG’s Analysis: Although the ATF did not explicitly
       state whether it agrees with our finding, the ATF’s planned course
       of action will address the problems we reported with varying
       inspection implementation by ATF Field Divisions and will lead to
       more consistent inspections across the agency.

      FINDING: Suspected criminal violations are not always
referred for investigation.

             The ATF’s Comment: The ATF stated that its June 2004
       policy reminds Inspectors to initiate referrals to ATF Special Agents
       when inspections reveal potential trafficking indicators.

              The OIG’s Analysis: If followed, we agree that the ATF’s
       new policy will address our finding and lead to more consistent
       referrals of suspected trafficking.

      FINDING: The ATF acts infrequently to revoke federal
firearms licenses, and the process is not timely. New ATF policy
begins to address inconsistent and untimely adverse actions.

              The ATF’s Comment: The ATF disagreed with our finding
       that, prior to its new policy, the ATF acted “improperly” by
       infrequently revoking federal firearms licenses and noted that we
       did not find a specific case in which the ATF should have taken
       such action against an FFL. The ATF stated that our report “fails
       to note the critical components that comprise the decision to take
       adverse action against an FFL.” The ATF stated that the report
       should note that not all violations of federal firearms laws warrant
       revocation of the FFL’s license. Further, the ATF stated that the
       legal standard is “willfulness,” and many violations “may be so
       inadvertent that they cannot satisfy the legal standard.” In
       addition, the ATF noted that many applicants and licensees
       withdraw their requests for a federal firearms license rather than
       face revocation.

             The OIG’s Analysis: We did not identify any FFLs that the
       ATF allowed to stay in business when revocation was warranted
       because, as our report made clear, we did not re-inspect any FFLs
       during our review. Instead, we examined the ATF’s overall
       processes.



U.S. Department of Justice
Office of the Inspector General                                        97
Evaluation and Inspections Division
              Our report did not state that the ATF acted “improperly” by
       failing to revoke FFL licenses in the past. However, the ATF’s own
       actions indicate that its past practices were inadequate. In our
       review, we found that 11 of the ATF’s 23 Field Divisions took no
       revocation actions in FY 2002. Those 11 Field Divisions conducted
       a total of 1,936 compliance inspections that found 51,314 violation
       instances. To accept the ATF’s logic would mean that those Field
       Divisions initiated no revocations because, despite the 51,314
       violations – which ATF Inspectors spent more than 108,000 hours
       to find and document – the ATF found no case that indicated a
       pattern of willful disregard for federal firearms laws. If that were
       correct, we would question such an expenditure of resources to
       find and document minor infractions. We would also question the
       ATF’s process for selecting FFLs to inspect in those Field Divisions,
       since it failed to make effective use of established indicators of
       trafficking to identify those FFLs among the 46,775 FFLs located in
       these Field Divisions that were likely to be willfully violating federal
       firearms laws. We believe such FFLs existed in those 11 Field
       Divisions. [During our review, we also noted news reports of
       corrupt FFLs being arrested in Miami, Los Angeles, and Phoenix.]

             The ATF’s argument that, in the past, it always properly
       revoked the licenses of FFLs that were willfully violating federal
       firearms laws is also contradicted by the substantial rise in
       revocations since the ATF issued revised adverse action guidelines.
       In the first quarter of FY 2004, the ATF issued Initial Notices of
       Revocation or denied renewal to 59 FFLs. If that rate continues,
       the ATF will revoke the licenses of almost eight times as many
       FFLs in FY 2004 as it did in FY 2002. Given the above, we do not
       find persuasive the ATF’s argument that in the past it revoked the
       licenses of all FFLs that violated federal firearms laws.

     FINDING: By streamlining and standardizing inspections, the
ATF could dramatically improve the FFL inspection program.

              The ATF’s Comment: The ATF stated that it began
       addressing “deficiencies” in its inspection program prior to the
       initiation of our review and stated that it will closely monitor its
       Inspectors to ensure that they are following the June 2004
       guidelines, which address deficiencies that the ATF identified as
       well as those we identified in our report.



U.S. Department of Justice
Office of the Inspector General                                           98
Evaluation and Inspections Division
              The OIG’s Analysis: We believe that the ATF’s June 2004
       guidelines and the planned actions described in its response to our
       recommendations will be effective for responding to the need we
       identified for the ATF to improve the FFL inspection program.




U.S. Department of Justice
Office of the Inspector General                                      99
Evaluation and Inspections Division
      FINDING: The ATF does not consistently report inspection
performance.

             The ATF’s Comment: The ATF stated that it is committed
       to ensuring the integrity of its performance indicators and stated
       that modifications and upgrades to its electronic databases will
       help ensure consistent reporting of inspection performance.

               The OIG’s Analysis: We believe that the ATF’s planned
       course of action will lead to more accurate and consistent reporting
       of its inspection activities.

      FINDING: New restrictions on retention of gun purchaser data
will hinder the ATF’s ability to detect fraudulent background
checks.

              The ATF’s Comment: The ATF stated that a new restriction
       placed on data maintained by NICS does not hinder the ATF’s
       ability to “ensure FFLs do not abuse the NICS system.” The ATF
       stated that it is developing a procedure to allow Inspectors to
       obtain 90 days of FFL-specific NICS information from the Federal
       Bureau of Investigation (FBI), which oversees NICS, prior to
       inspecting FFLs. The ATF stated that this information gives
       Inspectors the “ability to conduct NICS rechecks to ensure FFLs
       did not provide NICS with false information.”

              The OIG’s Analysis: On the basis of the information
       provided by the ATF, we continue to believe that the new
       restriction on NICS information will reduce the ATF’s ability to
       detect fraudulent NICS checks through an examination of FFL
       records. Even if ATF Inspectors are supplied with 90 days of FFL-
       specific NICS data from the FBI, all purchaser information on
       approved sales will be deleted within 24 hours. Therefore, the ATF
       can only assume that the purchaser information that was
       originally submitted to NICS was the same as the information that
       the Inspector submits for the recheck. If the recheck finds that a
       sale was allowed to a prohibited person, the ATF will have no way
       of determining from the FFLs’ records whether the approval was
       due to an incorrect response from the NICS operator (i.e., the
       result of FBI error) or if it occurred because the FFL supplied
       incorrect purchaser information to NICS.



U.S. Department of Justice
Office of the Inspector General                                       100
Evaluation and Inspections Division
              Moreover, the ATF will have no way of determining the cause
       of an incorrect NICS response once 90 days have elapsed because,
       after that time, the FBI also deletes the remaining FFL-specific
       information associated with approved NICS transaction numbers.
       We agree that conducting a recheck could potentially identify that
       a prohibited person obtained a gun. However, we continue to
       believe that the new NICS restriction will hinder the ability of the
       ATF to detect fraudulent NICS background checks by examining
       FFL records during compliance inspections.




U.S. Department of Justice
Office of the Inspector General                                       101
Evaluation and Inspections Division
